<html>
<title> - THE NATIONAL INCIDENT MANAGEMENT SYSTEM: ENHANCING RESPONSE TO TERRORIST ATTACKS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
                THE NATIONAL INCIDENT MANAGEMENT SYSTEM:
                ENHANCING RESPONSE TO TERRORIST ATTACKS

=======================================================================

                                HEARING


                               before the

          SUBCOMMITTEE ON EMERGENCY PREPAREDNESS AND RESPONSE

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 29, 2004

                               __________

                           Serial No. 108-59

                               __________

    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
25-602                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012006


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
David Dreier, California             Barney Frank, Massachusetts
Duncan Hunter, California            Jane Harman, California
Harold Rogers, Kentucky              Benjamin L. Cardin, Maryland
Sherwood Boehlert, New York          Louise McIntosh Slaughter, New 
Joe Barton, Texas                    York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas                 Ben Chandler, Kentucky
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

          Subcommittee on Emergency Preparedness and Response

                    John Shadegg, Arizona, Chairman

Curt Weldon, Pennsylvania,           Bennie G. Thompson, Mississippi 
W.J. ``Billy'' Tauzin, Louisiana     Ranking Member
Christopher Shays, Connecticut       Jane Harman, California
Dave Camp, Michigan                  Benjamin L. Cardin, Maryland
Lincoln Diaz-Balart, Florida         Peter A. DeFazio, Oregon
Peter King, New York                 Nita M. Lowey, New York
Mark Souder, Indiana                 Eleanor Holmes Norton, District of 
Mac Thornberry, Texas                Columbia
Jim Gibbons, Nevada                  Bill Pascrell, Jr., New Jersey
Kay Granger, Texas                   Donna M. Christensen, U.S. Virgin 
Pete Sessions, Texas                 Islands
Christopher Cox, California, Ex      Bob Etheridge, North Carolina
Officio                              Ken Lucas, Kentucky
                                     Jim Turner, Texas, Ex Officio

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Shadegg, a Representative in Congress From the 
  State of Arizona, and Chairman, Subcommittee on Emergency 
  Preparedness and Response......................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Subcommittee 
  on Emergency Preparedness and Response.........................     2
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    33
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    30

                               WITNESSES

Mr. GiL Jamieson, Acting Director, NIMS Integration Center, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. P. Michael Freeman, Chief, Los Angeles County Fire 
  Department, California:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Steve Lenkart, National Director of Legislative Affairs, 
  International Brotherhood of Police Officers:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Dr. Jospeh Barbera, Co-Director, Institute for Crisis, Disaster, 
  and Risk Management, George Washington University:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24

                             FOR THE RECORD

Questions Submitted by the Honorable Bennie G. Thompson:
  Responses from Mr. Gil Jameison................................    43
  Responses from Dr. Joseph Barbera, Chief P. Michael Freeman, 
    and Steve Lenkart............................................    44


                    THE NATIONAL INCIDENT MANAGEMENT
            SYSTEM: ENHANCING RESPONSE TO TERRORIST ATTACKS

                              ----------                              


                     Wednesday, September 29, 2004

                          House of Representatives,
             Select Committee on Homeland Security,
                                  Subcommittee on Emergency
                                 Preparedness and Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:20 a.m., in 
Room 210, Cannon House Office Building, Hon. John B. Shadegg 
[chairman of the subcommittee] presiding.
    Present: Representatives Shadegg, Granger, Thompson, Lowey, 
Christensen and Etheridge.
    Mr. Shadegg. The committee will come to order. First, let 
me apologize. I was tied up with a vote in another committee. I 
regret my delay in getting here. I express my sincere apology 
for the Members and the witnesses who were waiting and my 
regret that that occurred.
    I would begin by asking unanimous consent that opening 
statements be limited to subcommittee and full committee 
Chairman and Ranking Members. Without objection, so ordered.
    On March 1, 2004, the Department of Homeland Security 
Secretary Tom Ridge, acting on Homeland Security Presidential 
Directive 5, announced the approval of the National Incident 
Management System, or NIMS. This is a particularly important 
announcement for our Nation's homeland security as NIMS is the 
Nation's first standardized management system unifying the 
actions of all levels of governments during a large-scale 
emergency response.
    The creation and implementation of NIMS also comports with 
the recommendation of the 9/11 Commission. Specifically the 
Commission recommended making homeland security funding 
contingent upon the adoption of an Incident Command System to 
strengthen teamwork in a crisis, including a regional approach.
    What does all of this talk about NIMS and incident command 
mean for America's homeland security? It means that for the 
first time at all levels of government, be it Federal, State or 
local, they will be reading from the same playbook and speaking 
the same language when they respond to an emergency, ranging 
from a flood or a fire to a terrorist attack. NIMS is designed 
to provide a controlled, organized and unified command 
structure, and to respond efficiently and effectively to all 
major events across the country.
    The National Incident Management System has many distinct 
advantages. As mentioned earlier, it ensures the coordination 
of all levels of government across city, State and county lines 
during an emergency. It also provides a basis for standardized 
communications and a more efficient and effective way to relay 
information, both essential components for the safe and 
effective management of a disaster scene or terrorist attack.
    Incident management teams have been operating successfully 
since the 1970s in the management of forest fires. More 
recently we have seen the success of NIMS in managing the 
breakout of the avian flu, influenza, in the spring of 2002, 
and the exotic Newcastle disease in 2003, and the search and 
recovery efforts during the space shuttle Columbia disaster. In 
all of these instances we saw how successful communication, 
coordination and cooperation can save lives.
    NIMS also assures the same level of preparedness for all 
agencies of all levels of government across the country. It 
provides for the same training, certification, and planning 
exercises to ensure standardized responses consistent with 
mutually agreed-upon doctrine.
    A key to responding successfully to an incident is simply 
keeping calm and letting logic and the best practices prevail. 
Educating the public furthers this goal by helping to prevent 
confusion and chaos. This allows the trained professionals, 
whether fire, police, or health officials or National Guard, to 
do their job in a safe and effective manner.
    To help us better understand the intricacies and the 
importance of the National Incident Management System, we will 
be hearing from both Federal and county officials. We are 
particularly interested in what they have to say about what the 
respective Federal agencies are doing to implement and 
coordinate and maintain NIMS.
    We will also assess the rate of integration of the NIMS 
International Emergency Response Protocol and if the deadlines 
for Federal grant monies are appropriate and realistic.
    Finally, we will evaluate how effective NIMS will be in 
enhancing the response of the fire services, law enforcement 
agencies and health disaster relief workers.
    Mr. Shadegg. At this time I would like to recognize the 
Ranking Member Mr. Thompson for his opening statement
    Mr. Thompson. Thank you, Mr. Chairman. I join the Chairman 
in welcoming our witnesses to this hearing, and I look forward 
to hearing the testimony on the National Incident Management 
System, which has significant implications for our first 
responder community. However I would like to take this 
opportunity to talk about the priorities of the Select 
Committee on Homeland Security also.
    This week at least a half dozen House committees will 
debate and mark up the Republican leadership's legislation to 
implement the recommendations of the 9/11 Commission, but the 
Select Committee on Homeland Security will not be one of those 
committees. According to the press reports, Chairman Cox's 
staff has stated that we cannot mark up the 9/11 legislation 
because we are too busy focusing all our attention on 
completing the report regarding the future of the Select 
Committee on Homeland Security. And although we are too busy to 
weigh in and mark up what may be the most important 
intelligence and homeland security reform legislation this 
year, we do appear to have the time to hold a hearing on a 
National Incident Management System.
    Let me suggest that we are not too busy to exercise our 
jurisdiction of certain authority of this committee and mark up 
the 9/11 Commission legislation. By taking this action, we will 
demonstrate through our work rather than through the report of 
the House that our committee should be permanent. Therefore, I 
hope the Chairman of the full committee will reconsider his 
decision and that he will schedule a markup before the week's 
end.
    Now, with respect to the National Incident Management 
System, or NIMS, there are some aspects of this program that 
should be carefully examined. As a former volunteer 
firefighter, I understand the importance of a clear command-
and-control structure and the benefits that such a certain 
structure provides during incident response. But I think the 
witnesses will agree with me when I say that the Incident 
Command System and unified command existed long before anybody 
ever contemplated the Department of Homeland Security. These 
systems have always been bottom-up organizational structures 
focused on addressing the unique needs of different types of 
disasters and emergencies by first maintaining the flexibility 
to modify the response strategies, and, second, simplifying the 
integration of additional State and Federal resources if 
required.
    However, the current version of NIMS is heavily focused on 
the top-down response structure, almost to the point that we 
may find that we lose ability and flexibility to effectively 
respond. In addition, the fiscal 2005 budget request for NIMS 
is solely devoted to increasing the preparedness of Federal 
response forces rather than State and local responders. 
Increasing the preparedness of Federal response organizations 
does not increase the preparedness of individual communities 
who would be the first on the scene following a terrorist 
attack.
    According to the September 8 letter from Secretary Ridge to 
the Governors, in the fiscal 2006 year, the administration will 
require State and local governments to adopt NIMS in order to 
be eligible for Federal preparedness grant assistance. It is 
not clear to the States and localities which grant funds will 
be impacted by this requirement, nor is it clear what these 
governments will need to certify that they have to adopt NIMS. 
I would ask our DHS witness to provide some more details on 
this matter.
    This same letter also outlines the Secretary's requirements 
for the States in fiscal year 2005. Among other tasks, DHS 
expects the States to incorporate NIMS into the emergency 
operation plan, coordinate and provide technical assistance to 
local entities regarding NIMS, and institutionalize the use of 
the Incident Command System. I am concerned that DHS is not 
providing additional grant funds to achieve these goals, and 
they are an unfunded mandate. For example, I am not aware of 
any additional funding for State and local governments to train 
personnel in NIMS, nor am I aware of any funding to revise and 
publish new emergency operation plans that are consistent with 
NIMS.
    It appears that DHS expects the States to leverage these 
general ODP grant funds for the purpose and choose between 
implementing them and other equally pressing needs like 
specialized equipment, training, terrorism exercise, and 
enhanced security at critical infrastructure sites.
    This concern applies in particular to the law enforcement 
community, which does not traditionally run its response 
operating using the Incident Command System. How does DHS 
expect the States to train and certify the thousands of law 
enforcement personnel who will soon be required to adopt NIMS? 
I hope that the witnesses can provide us with a perspective on 
these questions, and I look forward to their testimony. Thank 
you.
    Mr. Shadegg. The Chair would note that neither the Chairman 
of the full committee nor the Ranking Member of the full 
committee, Mr. Cox or Mr. Turner, are here at the moment, so 
they will not be able to make their opening statements. If they 
join us soon, we will offer them that opportunity.
    At this point I would like to introduce our panel of 
witnesses. Mr. Gil Jamieson is the Director of NIMS Integration 
Center for the Department of Homeland Security. Mr. Michael 
Freeman is the fire chief of Los Angeles County Fire 
Department. Mr. Steve Lenkart is the Director of Legislative 
Affairs for the National Association of Government Employees, 
International Brotherhood of Police Officers. Dr. Joseph 
Barbera is an associate professor of engineering, management 
and clinical associate professor of emergency medicine at 
George Washington University.
    I would like to thank all the witnesses for being here. We 
sincerely appreciate your testimony, which we have in written 
form. Your full testimony will appear in the record. I would 
invite you at this point in your opening statement to summarize 
it as best you would like and make any particular points or 
highlight any particular points that you have made in your 
written testimony.
    With that, Mr. Jamieson, would you like to begin? Please 
press the button on your mike and get a light to come on, and 
we will be able to hear you.

 STATEMENT OF GIL JAMIESON, ACTING DIRECTOR, NIMS INTEGRATION 
          CENTER, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Jamieson. Good morning, Chairman Shadegg and members of 
the committee. My name is Gil Jamieson. I am the Acting 
Director of the NIMS Integration Center in the Department of 
Homeland Security. It is my pleasure to be here today to update 
you on our efforts to implement the National Incident 
Management System.
    We all recognize that every day there are emergencies in 
the United States that require action by our emergency 
responders. Whether those responders come from different 
departments of the same jurisdiction or from outside State and 
Federal agencies, they need to be able to work together 
effectively.
    In the Homeland Security Presidential Directive 5, the 
President directed the Homeland Security Secretary to develop 
and administer a National Incident Management System. On March 
1, 2004, after close collaboration with Federal, State and 
local representatives, Secretary Ridge issued the NIMS to 
provide a consistent nationwide approach for Federal, State, 
tribal and local governments to work together and to provide 
the framework to prepare for, prevent, respond to and recover 
from domestic incidents regardless of cause, size or 
complexity.
    At the core of the National Incident Management System is 
the Incident Command System, or ICS. The NIMS establishes ICS 
as the standardized organizational structure for the management 
of all incidents. ICS is interdisciplinary and organizationally 
flexible to meet the needs of incidents of any size or level of 
complexity. When DHS released the NIMS, Secretary Ridge and the 
Under Secretary for Emergency Preparedness and Response 
specifically highlighted compliance with ICS as being possible 
in the short term. They recognized that in some cities and 
areas of urban and wildland interface, first responders have 
worked together using ICS for years.
    ICS is at its core a management system designed to 
integrate resources, both personnel and equipment, to 
effectively attack a common problem. The system is not 
exclusive to one discipline or set of circumstances, and its 
hallmark is that it is flexible to accommodate all disciplines 
in all circumstances.
    The recommendations of the 9/11 Commission highlight the 
importance of ICS. The Commission recommended national adoption 
of ICS to enhance command, control and communication 
capabilities. Earlier this month Secretary Ridge issued 
guidance to address the phased implementation of NIMS at the 
Federal, State and local levels. In a letter to the Governor, 
Secretary Ridge highlighted the important features of NIMS 
implementations that should receive special emphasis in fiscal 
year 2005, including institutionalization of ICS.
    Many of the NIMS requirements are specific to local 
jurisdictions, and in order for NIMS to be implemented 
successfully across the Nation, it is critical that States 
provide support and leadership to tribal and local entities. To 
the maximum extent possible, States, territories, tribes and 
local entities are encouraged to achieve full NIMS 
implementation and institutionalization across the entire 
response spectrum during fiscal year 2005. By fiscal year 2007, 
Federal preparedness assistance will be conditioned by full 
compliance with the NIMS.
    By December 31 of 2004, all Federal departments and 
agencies with a primary or supporting role under the national 
response plan must submit a NIMS implementation plan to the 
Secretary and the President's homeland security advisor. The 
implementation plans must reflect how the agency will 
accomplish full NIMS implementation by September 30 of fiscal 
year 2005, including modifications of their emergency 
operations plans.
    As I explained earlier, the ICS is at the core of NIMS, and 
one of the first steps to becoming compliant with NIMS requires 
State and local governments to institutionalize the use of NIMS 
as taught by the Department of Homeland Security. ICS, as 
taught by the Department, means that whatever ICS training a 
jurisdiction receives, it must be consistent with concepts, 
principles and characteristics of ICS training offered by the 
various DHS training entities. It does not mean that ICS 
training needs to be taught by a DHS employee or at a DHS 
facility, although there are certainly a number of options that 
are currently available to facilitate this training available 
through the Department.
    We recognize that there are a variety of training programs 
that provide ICS training. The NIMS Integration Center will be 
working with Federal, State, local and private training 
providers to ensure that their ICS course offerings are 
consistent with the NIMS.
    The NIMS required the establishment of an integration 
center to provide strategic direction for and oversight of the 
NIMS, including the continuous refinement of the system and its 
components over the long term. Secretary Ridge established the 
Integration Center on May 8 of 2004. The Center Director 
reports to Secretary Ridge, to the Under Secretary of Emergency 
Preparedness and Response Michael Brown. Current Integration 
Center activities include coordinating, training, and providing 
guidance and tools to Federal, State, local and tribal entities 
on understanding and implementing and complying with the NIMS, 
and establishing an Integration Center advisory committee to 
continue the collaborative partnership that has characterized 
the development of the NIMS to date.
    The Department recognizes that the overwhelming majority of 
emergency incidents are handled successfully on a daily basis 
by a single jurisdiction at the local level. It is, however, 
critically important that all jurisdictions comply with NIMS 
because the challenges we face as a Nation are far greater than 
the capabilities of any one community or State. They are not, 
however, greater than the sum of all of us working together 
through mutual aid.
    There will be instances in which successful domestic 
incident management operations depend on the involvement of 
emergency responders from multiple jurisdictions as well as 
personnel and equipment from other States and the Federal 
Government. These instances require effective and efficient 
coordination across the broad spectrum of organizations and 
activities. The success of the operation will depend on our 
ability to mobilize and effectively utilize a host of outside 
resources. They must come together in an organizational 
framework that is understood by everyone, utilize a common 
approach to planning as specified through the ICS process of 
incident access planning, and order and receive resources in 
conformance with a standard approach to resources typing and 
mutual aid. It will only be possible if we unite, plan, 
implement, exercise and respond using a common National 
Incident Management System.
    Mr. Chairman, this concludes my remarks. I would be pleased 
to answer any questions, and I look forward to continuing to 
work with the committee as we implement NIMS across the Nation.
    Mr. Shadegg. Thank you very much for your testimony.
    [The statement of Mr. Jamieson follows:]

                   Prepared Statement of Gil Jamieson

Introduction
    Good morning, Chairman Shadegg and members of the Committee. My 
name is Gil Jamieson and I am the Acting Director of the National 
Incident Management System (NIMS) Integration Center in the Federal 
Emergency Management Agency (FEMA), within the Department of Homeland 
Security (DHS). It is my pleasure to be here with you today to update 
you on our efforts to implement the NIMS.

Background
    Everyday there are emergencies in the United States that require 
action by emergency responders. Whether those responders come from 
different parts of the same jurisdiction or from State and Federal 
agencies, they need to be able to work together effectively. They need 
to be able communicate with each other, and they need to be able to 
depend on each other. In Homeland Security Presidential Directive 
(HSPD)-5, Management of Domestic Incidents, the President directed the 
Secretary of Homeland Security to develop and administer a NIMS to 
accomplish the purpose of establishing standard incident management 
processes, protocols, and procedures that will allow responders to work 
together more effectively.
    On March 1, 2004, after close collaboration with federal, state, 
local, and private sector representatives, Secretary Ridge issued the 
NIMS which provides a consistent nationwide framework for Federal, 
state, tribal, and local governments to work together to prepare for, 
prevent, respond to, and recover from domestic incidents, regardless of 
cause, size, or complexity. The NIMS provides all of the Nation's 
first-responders and authorities with the same foundation for incident 
management for terrorist attacks, natural disasters, and other 
emergencies. The NIMS utilizes the Incident Command System (ICS) as a 
standard incident management organization for the management of all 
major incidents.
    One of the hallmarks of the NIMS is the balance it strikes between 
flexibility and standardization, reflected in its mechanisms for on-
going support and maintenance of the system. The NIMS provides a 
consistent, flexible, and adjustable national framework within which 
government and private entities at all levels can work together to 
manage domestic incidents, regardless of their cause, size, location, 
or complexity. This flexibility applies across all phases of incident 
management: prevention, preparedness, response, recovery, and 
mitigation.
    The NIMS also provides a set of standardized organizational 
structures--such as the ICS, multi-agency coordination systems, and 
public information systems--as well as requirements for processes, 
procedures, and systems to improve interoperability among jurisdictions 
and disciplines in various areas.

The major components of the NIMS are:
        <bullet> Command and Management
        <bullet> Preparedness
        <bullet> Resource Management
        <bullet> Communications and Information Management
        <bullet> Supporting Technologies
        <bullet> Ongoing Management and Maintenance

I would like to briefly highlight the most important aspects of each 
component of the NIMS.

Command and Management
    There are three command structures in the NIMS: the Incident 
Command System (ICS), Multiagency Coordination Systems, and Public 
Information Systems. I will discuss ICS in greater detail shortly. 
Multiagency Coordination Systems provide the architecture to support 
and coordinate the resources that are needed to support the on-site 
incident commander and include Emergency Operations Centers (EOCs), 
procedures, facilities, and communications. Public Information is 
coordinated in a Joint Information Center (JIC), which provides the 
structure and protocols for communicating consistent, timely, and 
accurate information to the public during a crisis or emergency 
situation.

Preparedness
    The NIMS addresses the specific measures and capabilities that 
jurisdictions should develop and incorporate into their overall system 
to enhance their operational preparedness. Preparedness is implemented 
through a continuous cycle of Planning, Training, Equipping, 
Exercising, Evaluating, and Corrective Action and Mitigation. NIMS 
Preparedness also addresses mutual aid, personnel qualifications and 
certification protocols, and guidelines for publications management.
    NIMS Preparedness and the implementation of HSPD-8 National 
Preparedness are closely linked. While the NIMS provides the core 
concepts and principles of preparedness, HSPD-8 implementation, through 
the National Preparedness Goal, will define the capacities and 
capabilities that must be met at the State and local levels. HSPD-8 
implementation will also help assess the resources needed to support 
State and local jurisdictions in achieving the Preparedness Goal.

Resource Management
    Resource management involves coordinating and overseeing the tools, 
processes, and systems that provide incident managers with timely and 
appropriate resources during an incident. NIMS resource management 
provides a uniform method to identify, acquire, allocate, and track 
resources and is enabled by the standardized classification of 
resources, known as resource typing. It uses a credentialing system 
tied to uniform training and certification standards to ensure that 
resources can be successfully integrated into response operations, and 
assigns responsibility for resource management to EOCs and/or other 
multiagency coordination systems.

Communications and Information Management
    Effective communications and information management during an 
incident are dependant upon a common operating picture, accessible 
across jurisdictions and functional agencies, and common communications 
and data standards, to assure accessibility and interoperability. A 
common operating picture allows incident managers at all levels to make 
effective, consistent decisions expeditiously and ensures consistency 
at all levels of incident management. Common communications and data 
standards are fundamental to an effective NIMS. Much work is already 
underway in this area, and the NIMS Integration Center will collaborate 
with other offices working to address these issues, including the 
SAFECOM program, the Office of Interoperability and Compatibility 
(OIC), and the Disaster Management program.
    For example, the Disaster Management program, an interagency 
initiative led by FEMA since 2001, is a critical government-wide 
initiative that directly improves the ability of our nation's first 
responders to communicate and share information at all levels of 
government.
    Disaster Management provides three critical functions to first 
responders and citizens. The first is one-stop access through the 
disasterhelp.gov portal for all Federal disaster management-related 
information, services, and planning and response tools making it easier 
to find disaster assistance information. The second important function 
is the development and promotion of standards to share emergency 
response information across disparate third party software packages and 
between organizations, regardless of the source or type of information. 
The third capability provided through this initiative is an 
interoperable disaster management tool to assist first responders in 
preparing for and responding to a disaster. This tool promotes 
information sharing among the public safety community and among local, 
State, and Federal governments in order to better coordinate response 
to an incident and ultimately save lives and property. There are 
currently over 800 user groups in 49 states using this tool and it has 
been used to respond to over 50 real-world incidents, including the 
recent Hurricane Ivan, Hurricane Isabel in September 2003, and the 
California wildfires. There are also over 36,000 registered users of 
the Dhelp portal who look to the portal not only to get the latest 
updates on incidents across the nation, but also for authoritative 
sources of disaster preparation, mitigation, and recovery 
information.''

Supporting Technologies
    The ongoing development of science and technology is integral to 
the improvement and refinement of the NIMS. The NIMS provides 
mechanisms to integrate the incident management science and technology 
needs into the national research and development (R&D) agenda.

Incident Command System (ICS) and the 9/11 Commission Recommendations
    At the core of the NIMS is the Incident Command System (ICS). The 
NIMS establishes ICS as the standardized incident organizational 
structure for the management of all incidents. ICS integrates a 
combination of facilities, equipment, personnel, procedures, and 
communications operating within a common organizational structure. ICS 
is interdisciplinary and organizationally flexible to meet the needs of 
incidents of any size or level of complexity. ICS can be used at all 
levels of the government and can be exported to the private sector. To 
enhance coordination of effort, during incidents involving multiple 
jurisdictions or agencies, the principle of unified command is 
incorporated into the NIMS ICS organizational structure. Unified 
command not only coordinates the efforts of multiple jurisdictions and 
agencies, but also provides for and assures joint decisions on 
objectives, strategies, plans, priorities, and public communications.
    When the Department of Homeland Security released the NIMS on March 
1, 2004, Secretary Ridge and the Under Secretary for Emergency 
Preparedness and Response specifically highlighted compliance with the 
ICS as being possible in the short term. They recognized that in some 
cities, the fire and police departments have worked together using ICS 
for years. HSPD-5, requires State and local adoption of NIMS as 
condition for receiving federal preparedness funding, to the extent 
permitted by law. ICS is at its core, a management system designed to 
integrate resources to effectively attack a common problem. This system 
is not exclusive to one discipline or set of circumstances; its 
hallmark is its flexibility to accommodate all circumstances.
    The recommendations of the National Commission on Terrorist Attacks 
Upon the United States (the ``9/11 Commission'') highlight the 
importance of the ICS. The Commission's recent report recommends 
national adoption of the ICS to enhance command, control, and 
communications capabilities. All federal, state, and local 
jurisdictions will be required to adopt ICS in order to be compliant 
with the NIMS.
    Our success in implementing the NIMS will ensure, for the first 
time, all of the nation's emergency responders will use a common 
language, and a common set of procedures when working individually and 
together to keep America safe. The NIMS ensures that they will have the 
same preparation, the same goals and expectations, and most 
importantly, they will be speaking the same language.

NIMS Implementation
    Earlier this month, Secretary Ridge issued guidance to address the 
phased implementation of the NIMS at the Federal, State, and local 
levels. In a September 8, 2004 letter to the Governors, Secretary Ridge 
highlighted the important features of NIMS implementation that should 
receive special emphasis in FY 2005. Many of the NIMS requirements are 
specific to local jurisdictions, and in order for NIMS to be 
implemented successfully across the nation, it is critical that States 
provide support and leadership to tribal and local entities. The 
Department is looking to the Governors to coordinate with the State 
agencies, tribal governments, and local jurisdictions to develop a 
strategy to ensure statewide NIMS implementation.
    At the State and Territory level, efforts to implement the NIMS in 
FY 2005 must include the following:
<bullet> Incorporating NIMS into existing training programs and 
exercises
<bullet> Ensuring that Federal preparedness funding (including the DHS 
Homeland Security Grant Program and Urban Area Security Initiative 
(UASI)) support NIMS implementation at the State and local levels (in 
accordance with the eligibility and allowable uses of the grants)
<bullet> Incorporating NIMS into Emergency Operations Plans (EOP)
<bullet> Promotion of intrastate mutual aid agreements
<bullet> Coordinating and providing technical assistance to local 
entities regarding NIMS
<bullet> Institutionalizing the use of the ICS
    At the State, territorial, tribal, and local levels, jurisdictions 
should support NIMS implementation in FY 2005 by:

    <bullet> Completing the NIMS Awareness Course: ``National Incident 
Management System (NIMS), An Introduction'' IS 700
    This independent study course, developed by the Emergency 
Management Institute (EMI), explains the purpose, principles, key 
components and benefits of NIMS. The course is available on-line on the 
EMI web page at: http://training.fema.gov/EMIWeb/IS/is700.asp.

    <bullet> Formally recognizing the NIMS and adopting the NIMS 
principles and policies
States, territories, tribes, and local entities should establish 
legislation, executive orders, resolutions, ordinances, or other formal 
action to adopt the NIMS. The NIMS Integration Center (NIC) is 
developing sample language and templates to assist jurisdictions in 
formally adopting the NIMS through legislative and/or executive/
administrative means.

    <bullet> Establishing a NIMS baseline by determining which NIMS 
requirements have already been met
We recognize that State, territorial, tribal, and local entities have 
already implemented many of the concepts and protocols identified in 
the NIMS. The NIC is developing the NIMS Capability Assessment Support 
Tool (NIMCAST), a web-based self-assessment system that States, 
territories, tribes, and local governments can use to evaluate their 
incident response and management capabilities. This useful tool 
identifies the requirements established within the NIMS and can assist 
jurisdictions in determining the extent to which they are already 
compliant, as well as identifying the NIMS requirements that they are 
not being met. The NIC began a formal pilot test of the NIMCAST with a 
limited number of States earlier this month. Upon completion of the 
pilot and any necessary refinements to the system, the NIC will provide 
all potential future users with voluntary access to the system.

    <bullet> Establishing a timeframe and developing a strategy for 
full NIMS implementation
States should work with the tribal and local governments to develop a 
strategy for statewide compliance with the NIMS.

    <bullet> Institutionalizing the use of the Incident Command System 
(ICS)
If State, territorial, tribal, and federal grant recipients are not 
already using ICS, they must institutionalize the use of ICS 
(consistent with the concepts and principles taught by DHS) across the 
entire response system.
    To the maximum extent possible, States, territories, tribes, and 
local entities are encouraged to achieve full NIMS implementation and 
institutionalization across the entire response system during FY 2005. 
Applicants will be required to certify as part of their FY 2006 grant 
applications that they have met the FY 2005 NIMS requirements. To the 
extent that full implementation is not possible during FY 2005, Federal 
preparedness assistance will be leveraged to complete NIMS 
implementation by FY 2006. By FY 2007, receipt of Federal preparedness 
assistance will be conditioned upon full compliance with the NIMS.

    NIMS Implementation at the Federal Level
The Secretary also recently issued guidance to address the 
implementation of NIMS at the Federal level. The NIC is working with 
Federal departments and agencies to ensure they develop a plan to adopt 
NIMS and that all FY 2005 Federal preparedness assistance program 
documents address State and local NIMS implementation. By December 31, 
2004, all Federal Departments and Agencies with a primary or supporting 
role under the National Response Plan (NRP) must submit a NIMS 
Implementation Plan to DHS. The implementation plans must reflect full 
NIMS implementation within the Department or Agency by September 30, 
2005. The NIMS Integration Center is developing a template to assist in 
the development of the NIMS implementation plans. In accordance with 
the guidance that was issued to the Federal Departments and Agencies, 
the Secretary also issued a memorandum to the DHS Directorates and 
offices outlining the steps that DHS must take internally to implement 
the NIMS. The DHS Headquarters Operational Integration Staff (I-STAFF) 
will lead the overall development of the DHS NIMS Implementation Plan, 
in cooperation with the DHS Directorates and offices.
    For those Federal departments and agencies that do not have a role 
under the NRP, the Secretary issued a separate letter, asking those 
agencies to review the NIMS and assess the impact that it may have on 
their programs and operations.

    Training and other Tools to Support NIMS Implementation
The Emergency Management Institute has developed a NIMS Awareness 
training course. This independent study course explains the purpose, 
key components, and benefits of the NIMS, and as noted above, is 
available on the FEMA training website. In addition, the paper-based 
version of this NIMS awareness training was recently completed. The 
paper-based version will allow for large groups to be trained together 
during a conference or meeting.
    As I explained earlier, the ICS is at the core of the NIMS and one 
of the first steps for becoming compliant with the NIMS is for States 
and local governments to institutionalize the use of ICS (as taught by 
DHS) across the entire response system. ``ICS as taught by DHS'' means 
that whatever ICS training a jurisdiction receives must be consistent 
with the concepts, principles, and characteristics of the ICS training 
offered by the various DHS training entities. It doesn't mean the ICS 
training needs to be taught by a DHS employee or at a DHS facility, 
although those are certainly available training options.
    ICS training developed by FEMA is already available in the states. 
This training includes: ICS-100, Introduction to ICS; ICS-200, Basic 
ICS; ICS-300, Intermediate ICS; and ICS-400, Advanced ICS. The state 
emergency management training offices can coordinate these training 
programs for interested participants. FEMA's Emergency Management 
Institute (EMI) and the National Fire Academy (NFA) also offer ICS 
Train-the-Trainer classes at their facilities in Emmitsburg, Maryland. 
At the local level, agencies may contact their fire departments for 
information and training on ICS.
    We recognize a variety of other training programs are available 
which provide ICS training; the courses mentioned are just a start. The 
NIC will be working with Federal and State training providers to ensure 
their ICS course offerings are consistent with the NIMS.
    During FY 2005, the NIC will continue to provide guidance and 
technical assistance to Federal Departments and Agencies, as well as 
State, territorial, tribal, and local governments on the FY 2005-2006 
NIMS implementation requirements. This guidance will include a suite of 
``How-To Implement NIMS'' manuals, addressing key components of NIMS, 
such as mutual aid, credentialing, ICS, and resource management.

NIMS Integration Center (NIC)
    The NIMS required the establishment of the NIC to provide strategic 
direction for, and oversight of the NIMS, including continuous 
refinement of the system and its components over the long term. 
Secretary Ridge established the NIC on May 8, 2004. The NIC reports to 
Secretary Ridge through the Under Secretary for Emergency Preparedness 
and Response (EP&R), Michael Brown. The NIC is physically located 
within FEMA headquarters in Washington, DC.
    The NIC's organization and structure includes the Office of the NIC 
Director and proposes five functional branches. The branches include: 
Standards and Resources Branch; Training and Exercises Branch; the 
System Evaluation and Compliance Branch. the Publications Management 
Branch and the Technology/Research & Development Branch. Initial NIC 
staff is comprised of detailees from DHS directorates and offices, 
including the Emergency Preparedness and Response (EP&R) Directorate, 
the Office of State and Local Government Coordination and Preparedness 
(OSLGCP), and the Science and Technology (S&T) Directorate. NIC 
staffing will expand to include interagency detailees and state and 
local government representatives.
    The responsibilities of the NIC include: facilitating the 
development of a national system of guidelines, protocols and standards 
for NIMS implementation; defining national-level training standards and 
assessment criteria for the various components of the NIMS; and 
developing compliance requirements and timelines for federal, state, 
local and tribal entities implementing the NIMS.
    Currently, the NIC is focusing its efforts on several activities in 
support of the NIMS and the overall mission of the Department of 
Homeland Security. NIC activities include:
        <bullet> Receiving and brokering initial feedback and questions 
        on the NIMS;
        <bullet> Facilitating the development and delivery of NIMS 
        awareness training, education, and publications;
        <bullet> Coordinating training and providing initial guidance 
        and tools to Federal, State, local, and tribal entities on 
        understanding, implementing, and complying with the NIMS;
        <bullet> Identifying existing capabilities, initiatives, and 
        resources that support the NIMS and the NIC;
        <bullet> Identifying the process by which revisions to the NIMS 
        are recommended, approved, and posted;
        <bullet> Further defining the organizational structure, 
        collaborative processes, outreach mechanisms, and support 
        requirements of the full NIC;
        <bullet> Establishing a NIC Advisory Committee within the 
        existing Homeland Security Advisory Council structure to 
        continue the collaborative partnerships that have characterized 
        the development of the NIMS to date and to ensure all users and 
        stakeholders are given the opportunity to participate in 
        revisions and updates to the NIMS and participate in NIMS 
        guidance and directives.
        <bullet> Coordinating activities with other affected DHS 
        elements or offices as they relate to applicable statutes, 
        Homeland Security Presidential Directives (HSPDs) or other 
        relevant authorities.
    The NIC will continue to evolve and work to accomplish its specific 
tasks, as outlined in the NIMS,.and ensure that all efforts are 
collaborative and inclusive.
    I would like to take some time to provide you with a brief overview 
of each of the NIC branches and their responsibilities. The NIC has 
accomplished a significant amount in just a few short months and our 
activities will continue to expand as we bring on additional staff and 
as States and local jurisdictions work to implement the NIMS.
    The Standards and Resources Branch is focusing on the development 
of a national system of guidelines, protocols and standards for the 
implementation of the NIMS system. The Standards and Resources Branch 
will promote the compatibility between national-level standards for the 
NIMS and those developed by other public, private, and/or professional 
groups. The Standards and Resources branch will also begin to 
facilitate the development and publication of national standards, 
guidelines, and protocols for the qualification and certification of 
emergency responder and incident management personnel, as appropriate.
    One of the key responsibilities under this branch includes 
facilitation of the development and issuance of national standards for 
the typing of resources. Other important activities within this branch 
will include the identification of performance standards, the 
identification of an automated resource management system, and a 
national credentialing system. Current initiatives within this branch 
include:

<bullet> Developing a matrix to describe all existing and on-going NIMS 
related standards efforts, identifying areas where additional standards 
work is needed, and developing a prioritized approach to addressing 
gaps in standards, in partnership with the DHS Science and Technology 
Directorate and existing Standards Development Organizations;
<bullet> Enhancing mutual aid efforts nationwide by typing resources, 
promoting inter--and intra-state mutual aid agreements;
<bullet> Identifying a suitable national automated resource management 
system for phased deployment and use by Federal, Tribal, State, and 
Local responders, starting with the Federal departments and Agencies in 
FY2005;
<bullet> Establishing discipline specific working groups to analyze 
existing qualification and credentialing initiatives, and develop 
discipline specific standards for a nation-wide first responder 
credentialing system.
<bullet> Developing phased requirements for all jurisdictions to 
achieve NIMS compliance.
    The NIC, through the Standards and Resources Branch, will 
incorporate and expand upon the work that FEMA, through its National 
Mutual Aid and Resource Management Initiative, has already accomplished 
in this area. This effort and the accomplishments of this working group 
directly support the NIMS and the NIC, particularly in the areas of 
mutual aid and resource management.
    A national protocol for typing critical response resources has 
already been developed. 120 resources, including equipment, teams and 
personnel, have been typed and the definitions will be released by the 
end of this month.
    The Training and Exercises Branch is facilitating the definition of 
NIMS training requirements and national-level training standards, and 
NIMS-related course curricula. It will facilitate the development of 
national standards, guidelines and protocols for incident management 
training and exercises, including consideration of existing exercise 
and training programs at all jurisdictional levels. This branch will 
develop a national program for NIMS education and awareness, to include 
specific instruction on the purpose and content of the NIMS document 
and the NIMS in general. The online NIMS awareness training that I 
described earlier is the first of many training modules.
    The Training and Exercises Branch will consult and take into 
consideration existing exercise and training programs at all 
jurisdictional levels in the development of national standards, 
guidelines, and protocols for incident management training and 
exercises. The branch will develop criteria for training curricula and 
classes, using the Planning Scenarios being developed by the Homeland 
Security Council as a basis, develop complete exercise programs, and 
methodologies for incident management, assist with performance 
validation, assists with remediation, and assist with internal process 
review. Current initiatives include:

<bullet> Developing NIMS awareness training;
<bullet> Identifying existing training that supports NIMS and 
determining what additional training is needed to support NIMS 
implementation; and
<bullet> Developing criteria for NIMS training curricula and classes in 
coordination with existing training entities.
    The System Evaluation and Compliance Branch will oversee the 
development of assessment criteria for the various components of the 
NIMS. It will oversee compliance requirements and compliance timelines 
for federal, state, local and tribal entities. It also will maintain a 
repository and clearinghouse for reports and lessons learned from 
actual incidents, training and exercises. Current initiatives include 
developing the NIMS Capability Assessment Support Tool (NIMCAST), the 
web-based self-assessment tool I mentioned earlier, that will assist 
jurisdictions in evaluating their incident response and management 
capabilities against NIMS requirements.
    The Publications Management Branch would develop and publish 
materials and standardized templates to support the implementation and 
continuous refinement of the NIMS, as well as review in coordination 
with appropriate entities, discipline-specific publication management 
requirements submitted by professional organizations and associations.
    Finally, the proposed Technology/R&D Branch, in coordination with 
the Under Secretary for Science and Technology in DHS, would focus on 
the integration of the incident management science and technology needs 
of the various entities (departments, agencies, private and non-
governmental organizations) and the national R&D agenda.
    The NIMS Integration Center has created a web page, www.fema.gov/
nims, to provide information about the NIMS, including NIMS-related 
guidelines, tools and resources. The NIC has also set up a mailbox at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="296760647a0460475d4c4e5b485d404647046a4c475d4c5b694d415a074e465f">[email&#160;protected]</a> so that the incident response community 
can ``Ask the NIC'' questions about NIMS implementation. The NIC will 
continue to post up-to-date information on the progress and current 
activities of its branches on the NIC web page.
Leveraging Existing Initiatives
    The NIC was not designed to do all of the work necessary to 
facilitate NIMS implementation. Just as the NIMS was developed by 
incorporating existing best practices into a comprehensive, national 
approach to domestic incident management, the NIC must leverage 
existing efforts and initiatives to support NIMS implementation.
    The area of NIMS-related standards provides a great example to 
illustrate my point. There are so many facets to NIMS-related 
standards, including equipment standards, communications standards, 
information management standards, credentialing standards, and training 
standards, to name just a few. Just as numerous as the areas requiring 
standards, are offices and organizations both within and outside of DHS 
working to develop these standards. The NIC cannot, and should not, be 
in the business of developing standards in any of these areas. Instead, 
like a true integration center, our job is to connect the dots between 
all of these efforts, identify gaps where no one is addressing a 
particular issue, serve as a proponent of that issue, and coordinate 
with the appropriate office or standard development organization to 
develop the standard.
    Coordination both within and outside the department is key to the 
NIC's mission and the successful implementation of the NIMS across the 
nation. The NIC will continue to leverage existing initiatives and 
efforts that relate to NIMS implementation, including the 
implementation of HSPD-8 National Preparedness, the National Response 
Plan (NRP), existing credentialing efforts at the State and discipline 
levels, and the work of other DHS Directorates, like S&T, EP&R, and 
OSLGCP. Because the NIC staff includes detailees from other DHS 
offices, and will eventually include liaisons from other Federal, 
State, and local organizations, the NIC is uniquely positioned to 
leverage existing capabilities and efforts. In addition, the 
establishment of the NIC Advisory Committee through the existing 
Homeland Security Advisory Council structure will further enhance our 
collaborative partnerships.

Conclusion
    The Department recognizes that the overwhelming majority of 
emergency incidents are handled on a daily basis by a single 
jurisdiction at the local level. However, it is critically important 
that all jurisdictions comply with the NIMS because the challenges we 
face as a nation are far greater than the capabilities of any one 
community or State; they are not, however, greater than the sum of all 
of us working together through mutual support. There will be instances 
in which successful domestic incident management operations depend on 
the involvement of emergency responders from multiple jurisdictions, as 
well as personnel and equipment from other States and the Federal 
government. These instances require effective and efficient 
coordination across the broad spectrum of organizations and activities. 
The success of the operation will depend on our ability to mobilize and 
effectively utilize a host of outside resources. They must come 
together in an organizational framework that is understood by everyone 
and they must utilize a common plan of attack, as specified through the 
ICS process of incident action planning. This will only be possible if 
we unite, plan, exercise, and respond using a common National Incident 
Management System.
    I look forward to continuing to work with the Committee as the 
Department implements the NIMS across the entire nation.

    Mr. Shadegg. Mr. Michael Freeman.

STATEMENT OF P. MICHAEL FREEMAN, CHIEF, LOS ANGELES COUNTY FIRE 
                     DEPARTMENT, CALIFORNIA

    Chief Freeman. Good morning, Mr. Chairman, members of the 
committee. I am Michael Freeman, Fire Chief, Los Angeles 
County, California, Fire Department. I serve also as Chair of 
the Terrorism and Homeland Security Committee of the 
International Association of Fire Chiefs and appear on the 
Association's behalf today.
    I am pleased to advise that the IAFC does indeed endorse 
the National Incident Management System as an efficient and 
effective way to bring resources together to respond to large-
scale incidents. I would look to commend the staff at the 
Department of Homeland Security, who have worked diligently on 
this task, and who have created a fine product. I would also 
like to commend my colleagues in the Fire Service who 
participated in the efforts.
    This document is a strong document and a strong plan, 
because actual practitioners were intimately involved in 
drafting it. One aspect of NIMS that we fully endorse is the 
Incident Command System. Much of Fire Service has been using 
ICS for decades, and, in fact, just last Fall ICS was 
indispensable in managing the California Fire Siege. This was 
one of the most devastating wildland fire disasters in 
California history. In the face of 14 wind-driven, fast-moving, 
simultaneous fires, ICS allowed for the expansion of roles and 
the effective use of resources as the complexity of the fire 
siege grew. Local, State and Federal agencies used incident 
command teams and ICS to manage these complex fire incidents. 
Overall, ICS enabled us to manage in excess of 14,000 
firefighters and thousands of firefighting resources during the 
siege.
    ICS clearly works on a large scale, in wild fires, major 
flood, earthquakes and even terrorist attacks. But also 
important is that ICS works on small day-to-day incidents as 
well. It is, therefore, important that law enforcement, fire, 
both paid and volunteer, health care workers, and, of course, 
Federal agencies do embrace the Incident Command System. It 
does work.
    Mr. Chairman, as much as we approve of NIMS and are working 
to incorporate it into the Fire Service response, I would like 
to touch on five areas of concern that we have about its 
implementation. First of all, we believe that fiscal year 2006 
is really too soon to tie the receipt of Federal terrorism 
response grant funding to NIMS implementation. There are over 
518 measurable requirements, and implementing all of them 
within the next year or so will be a Herculean if not 
unreasonable task. Also there are two major areas, those of 
credentialing and resource typing, where much more work is 
needed before NIMS can be fully implemented.
    We saw the need for credentialing of emergency responders 
in the aftermath of the World Trade Center. There scores of 
personnel with vastly different levels of training showed up 
and went to work. The incident commander had no way to know or 
to check on their level of training, their qualifications or 
their credentials. A truly a safe and systematic approach 
requires nationwide training standards and credentialing, and 
this will take time.
    NIMS also requires mutual aid resource typing. This is 
important because each State and even different entities define 
resources differently. For example, in Indiana if a fire chief 
calls for a tanker, a large truck filled with water will 
arrive. In California if I request a tanker, it will be an 
airplane filled with fire-retardant agents. We understand that 
DHS is resource typing in its project today, and we encourage 
that effort and its prompt conclusion with input from State and 
local practitioners. We suggest also that fire resource typing 
draw from what is taught at the National Fire Academy.
    Our second major concern about NIMS is its stress on mutual 
aid without truly addressing local costs. We suggest that the 
Federal Government do more to formalize mutual aid with 
attention given to local costs, especially in regions that do 
not qualify for the Urban Area Security Initiative grants. 
Funding of mutual aid agreements really should be a part of 
NIMS.
    And in this vein I would like to commend Chairman Cox for 
his work on H.R. 3266, the Faster and Smarter Funding for First 
Responders Act, which will allow regions to apply for homeland 
security grant funds.
    Our third concern about NIMS is training. Literally 
hundreds of thousands of responders must be trained in NIMS, 
and that training should be performance-based and not reliant 
simply upon time spent in the classroom. We encourage the 
Department of Homeland Security to work with the practitioners 
from all facets of the first responder community to create 
training programs for each discipline. We also need to have 
local and regional exercises that emergency responders can have 
the opportunity through which to practice what they have 
learned in the most realistic circumstances as possible.
    Our fourth concern is about private sector response. 
Clearly the private sector is a key element in the response to 
any sort of local emergency. Much more needs to be done in the 
outreach to the private sector, which really has not heard much 
about NIMS to date.
    And our final concern is with the communications 
interoperability. The International Association of Fire Chiefs 
has been advocating for interoperable communications for years. 
It is truly the linchpin of command and control. The IAFC 
supports the efforts that the Department of Homeland Security 
has undertaken with SAFECOM, which is a practitioner-driven 
program that is working.
    Also, please bear in mind that large-scale solutions will 
likely have large price tags. The IFC urges that the Federal 
Government offer monetary relief to State and local entities to 
whom upgrading communications equipment may be a hardship.
    In conclusion, Mr. Chairman, Members, I would like to thank 
you again for holding this hearing. I would like to commend the 
colleagues with me on this panel for their hard work on the 
National Incident Management System. I would particularly like 
to thank Mr. Gil Jamieson and the Department of Homeland 
Security, and extend to him the IAFC's continued support as the 
NIMS Integration Center proceeds with integration and the 
maintenance phase. Truly much progress has been made. More work 
lies ahead, but America is already better prepared as a result 
of these efforts. Thank you very much.
    Mr. Shadegg. Thank you very much for your testimony. I 
would note that by tradition I should have introduced you as 
Chief Freeman. My apologies for that.
    [The statement of Chief Freeman follows:]

             Prepared Statement of Chief P. Michael Freeman

    Mr. Chairman and members of the committee, I am Michael Freeman, 
Chief of the Los Angeles County (CA) Fire Department. I appear today on 
behalf of the International Association of Fire Chiefs (IAFC), in my 
role as chair of the IAFC's Terrorism and Homeland Security Committee. 
I am also a member of the Emergency Response Senior Advisory Committee 
to the Homeland Security Advisory Council, which is part of the U.S. 
Department of Homeland Security (DHS).
    The IAFC represents the leaders and managers of America's fire and 
emergency service. America's fire and emergency service reaches every 
community across the nation, protecting urban, suburban, and rural 
neighborhoods. Nearly 1.1 million men and women serve in more than 
30,000 career, volunteer, and combination fire departments across the 
United States. The fire service is the only entity that is locally 
situated, staffed, and equipped to respond to all types of emergencies. 
Members of the fire service respond to natural disasters such as 
earthquakes, tornadoes, and floods as well as to man-made catastrophes, 
both accidental and deliberate, such as hazardous materials incidents 
and acts of terrorism. As such, America's fire service is an all-risk, 
all-hazard response entity.

The IAFC Endorses the National Incident Management System
    Mr. Chairman, in your invitation you asked witnesses to address the 
National Incident Management System, commonly known as NIMS. The IAFC--
and particularly my colleague, Chief John Buckman of the German 
Township (IN) Fire Department--have been involved in creating the NIMS 
from the start. We endorse the NIMS as an efficient and effective way 
to bring resources together to respond to large-scale incidents. I 
would like to commend the staff at DHS who have worked diligently on 
this task, and who have created a fine product. I would also like to 
commend my colleagues in the fire service who participated in this 
effort. The main reason this document is strong is that actual 
practitioners were intimately involved in drafting it.
    One aspect of the NIMS that we fully embrace is the Incident 
Command System (ICS). The fire service has been using ICS for decades. 
In fact, Mr. Chairman, the state of California was the first to create 
and adopt an ICS system. It grew out of the devastating 1970 fire 
season where California fire services were severely criticized for 
failing to provide leadership in the areas of cooperation, command and 
control, communications, and training.
    ICS was indispensable in managing the California Fire Siege of 
2003, when we had to fight fourteen fires--all major incidents--
simultaneously. This was one of the most devastating wildland fire 
disasters in Southern California history--and in state history. ICS 
allowed for the expansion of roles and resources as the complexity of 
the siege grew. Local, state, and federal agencies used incident 
command teams that managed complex fire incidents. Some served as area 
command teams to supervise the multiple fires on behalf of agency 
administrators.
    During the Fire Siege, ICS helped commanders manage incident 
complexity and resource depth. There were numerous large fires burning 
concurrently, exceeding the span of control guidelines and involving 
multiple jurisdictions. That meant overlapping responsibilities and 
different agency policies. The fires were burning in both towns and 
wilderness areas simultaneously. ICS allowed us to split larger 
incidents in half, sometimes along jurisdictional boundaries. ICS also 
allowed us to draw on the closest existing resources that were trained 
and ready--with an overall count on our peak day of 14,000 
firefighters, including 263 crews, 1,659 engines, 81 helicopters, 178 
bulldozers and 2,207 overhead workers.\1\
---------------------------------------------------------------------------
    \1\ The term ``overhead workers'' includes personnel who are 
assigned to supervisory positions such as incident commanders, command 
staff, general staff, directors, supervisors, and unit leaders 
(FIRESCOPE Field Operations Guide ICS 420-1).
---------------------------------------------------------------------------
    I have seen ICS work on a large-scale incident in California, and I 
am confident that ICS is the best way to handle a potential large-scale 
event such as a terrorist attack. It is important to note that ICS also 
works on small day-to-day incidents, as well. I encourage all parties 
involved in the NIMS--law enforcement officers, health care workers 
and, of course, federal agencies--to embrace this system.

IAFC Concerns about Implementation
    Mr. Chairman, as much as we approve of the NIMS and are working to 
incorporate it into fire service response, we have a number of concerns 
about its implementation. Specifically, we are concerned about: (1) the 
imposed time limit for implementation, (2) the lack of funding for 
mutual aid systems, (3) the types of training being offered, (4) 
private sector response, and (5) requirements for communications 
interoperability.
    First, we believe that the start of Fiscal Year 2006 is too soon to 
begin to tie the receipt of federal terrorism response grant funding to 
NIMS implementation. We do believe that a financial incentive is 
important, and we believe that it is wholly appropriate for DHS to use 
federal grant funds as leverage. Our concern is with the timing. The 
NIMS has 518 measurable requirements. It is unclear to us whether DHS 
will require implementation of all 518, or whether a percentage will be 
required, or whether there will be a ``top ten.'' Implementing all 518 
requirements within the next year will be a Herculean--and perhaps 
unreasonable--task.
    At least two areas exist where we need more guidance from DHS. They 
are credentialing and resource-typing. We saw the need for 
credentialing of emergency responders in the aftermath of the World 
Trade Center attacks, when scores of personnel who had not been 
dispatched arrived on-scene as volunteers. The incident commander had 
no way to check their credentials to see how they were trained and to 
what levels, and if their training was current. We understand that the 
U.S. Fire Administration (USFA), with the help of practitioners, has 
completed a significant amount of work on credentialing; however, no 
final product has been disseminated. We encourage the USFA to take 
whatever steps may be necessary to implement the program.
    The NIMS also requires mutual aid resource-typing. This is 
important because each state defines its resources differently. For 
example, if a chief in Indiana calls for a tanker, a big truck filled 
with water will arrive. However, if a chief in California calls for a 
tanker, he or she will get an airplane filled with fire-retardant 
agents. In Indiana, a rescue company performs extrications; in 
Maryland, a rescue company is an ambulance squad. We understand that 
DHS's resource-typing project is in its final stages. We encourage DHS 
to work toward its prompt completion, with input from state and local 
practitioners.
    Our second major concern about the NIMS is that it does not fund 
mutual aid systems before an event occurs.\2\ As the mutual aid 
coordinator for a five-county area in Southern California, I cannot 
state strongly enough how important mutual aid systems are. They allow 
regions to share manpower and equipment during a large-scale response. 
Mutual aid systems also provide measurably improved command and control 
communications across agencies and jurisdictions. These agreements are 
not tacit, and they are not simply signed contracts. They are actual 
systems that are given careful consideration by all involved parties. 
It is not enough for one jurisdiction to say to another, ``we will help 
you.'' The jurisdictions must decide exactly what form that help will 
take, so that nothing is left to last-minute decisions or chance. We 
have that in Southern California, and it was indispensable in managing 
the 2003 Fire Siege.
---------------------------------------------------------------------------
    \2\ The federal government does fund mutual aid systems after 
certain events, such as after a national declaration of disaster. 
Another example is the Fire Management Assistance Grant program (FMAG) 
administered by the Federal Emergency Management Agency (FEMA). FMAG 
provides a 75% reimbursement to local entities that respond to a 
wildland fire when lives are threatened and evacuation is required.
---------------------------------------------------------------------------
    The federal government does recognize the need for mutual aid 
agreements but it must do more to formalize that aid, especially in 
regions that do not qualify for Urban Area Security Initiative (UASI) 
grants. Yes, local communities are first on the scene. But the 
capabilities grow through ICS. DHS should help fund mutual aid 
agreements as part of the NIMS. I would like to commend Chairman Cox 
for his work on H.R. 3266, the Faster and Smarter Funding for First 
Responders Act, which would allow regions to apply for homeland 
security grant funds.
    Our third concern about NIMS is the training that is--and is not--
available. Aside from a few online courses that teach NIMS awareness, 
DHS has not yet formalized a training program. I must stress that all 
participants must be trained in the NIMS. That training must be 
performance-based and not reliant simply on time spent in a classroom. 
We encourage DHS to work with practitioners from all facets of the 
first responder community to create training programs for each 
discipline. DHS should partner more with local practitioners to draft 
these training programs. DHS should also utilize the expertise of local 
practitioners to teach these courses. Practitioners should teach these 
courses through the training systems and facilities that already exist 
at the state level and in various response communities. Reinventing the 
wheel is only going to take more time, and result in a potentially less 
effective product. We also need to have exercises--perhaps modeled from 
the highly successful TOPOFF exercises that DHS holds regularly--so 
that emergency responders have the opportunity to practice what they 
have learned in the most realistic situations possible.
    Our fourth concern is private sector response. The NIMS requires 
first responders to reach out to the private sector, but does not 
define what shape that outreach should take. My colleague Chief Buckman 
told me that he reached out recently to his local utility companies to 
get them involved, and they had never even heard of the NIMS. DHS 
should rectify this situation as soon as possible. The private sector 
controls much of the infrastructure that could trigger a large-scale 
incident--think natural gas, electricity, and nuclear power. First 
responders must be able to work with them to craft response plans.
    Our final concern is with communications interoperability. The IAFC 
has been advocating for interoperable communications for years. It is 
the lynchpin of command and control. That is why the IAFC supports the 
efforts that DHS has undertaken with SAFECOM, which is a practitioner-
driven program that is working. The IAFC encourages DHS to use a 
practitioner-driven approach to enhancing communications 
interoperability through the NIMS.
    Many local departments have found interim solutions. We in Los 
Angeles County have a cache of radios for large-scale incidents. Anyone 
who arrives on-scene goes through a staging area. We first try to 
reprogram each person's radio to our frequency level. If that is not 
possible, we lend them one of ours.
    Of course, the issue still needs to be addressed comprehensively. 
Keeping practitioners involved will help make sure that solutions are 
agreed-upon and workable. Also, please bear in mind that large-scale 
solutions will have large price tags. The IAFC urges DHS to offer some 
monetary relief to state and local entities for whom upgrading 
communications equipment may be a hardship.

Conclusion
    In conclusion, Mr. Chairman, I would like to thank you again for 
holding this hearing. I would like to commend my colleagues who sit on 
this panel with me for their hard work on the NIMS. I would 
particularly like to thank Gil Jamieson, and to extend the IAFC's hand 
as the NIMS Integration Center proceeds with the implementation and 
maintenance phase.
    I will be happy to answer any of your questions.

    Mr. Shadegg. Mr. Steve Lenkart.

 STATEMENT OF STEVE LENKART, NATIONAL DIRECTOR OF LEGISLATIVE 
     AFFAIRS, INTERNATIONAL BROTHERHOOD OF POLICE OFFICERS

    Mr. Lenkart. Good morning, Mr. Chairman and Ranking Member 
Thompson and members of the subcommittee. My name is Steve 
Lenkart. I am the National Director of Legislative Affairs for 
the International Brotherhood of Police Officers. I am also a 
former police officer from the Chicago area where I had the 
pleasure of serving as a fire fighter and emergency medical 
technician, all three providing me within an in-depth 
understanding of each component and their individual needs and 
responsibilities. In particular today I speak on behalf of law 
enforcement, a very visible and crucial element vital to the 
success of any Incident Command System and to the support of 
infrastructures that surround it. Unfortunately, law 
enforcement is sometimes overlooked or underestimated within 
these systems often because of the unique function that they 
perform within the community is not fully understood by others.
    Today I would like to share with you three concerns of the 
law enforcement community about the integration, implementation 
of the National Incident Management System in an effort to 
prevent unintended consequences during the initiation period of 
NIMS for the benefit of all entities involved. They are in 
brief, one, that law enforcement agencies traditionally have 
not used large systems of incident command; two, that the role 
of law enforcement at critical incidents has expanded in recent 
years; and three, that police agencies widely lack many of the 
resources that other first responders may have available to 
them.
    Continuing with my first point. Federal, State, local law 
enforcement agencies have not historically participated in 
large-scale systems of command or management among themselves, 
and have even less commonly coordinated such efforts with other 
government agencies because of the different responsibilities 
that they are charged with heat at the scene of an incident. 
However, with the increased probability of acts of terror 
occurring domestically, we have entered into a new era that has 
forever changed our perceptions of prevention, preparedness and 
response to critical incidents.
    Unrest in the world around us has created a need for more 
comprehensive systems of coordination that must be flexible 
enough to provide for the proper guidance to deal with the 
control and resolution of a criminal element; whereas before 
the involvement of a criminal element was less likely and, as a 
result, large command systems were reserved primarily for use 
by fire, EMS, environmental and health care providers.
    My second point is now understanding that law enforcement 
at all levels must play a more prominent role in incident 
command systems, it is vital that the members of the Federal, 
State, local law enforcement communities participate as major 
players in the development of policy and procedure under NIMS. 
This is to ensure that traditional boundaries that have kept 
them separate from other public safety entities in the past are 
minimized or defeated. In addition, incorporated into the 
incident command systems must be the flexibility and leverage 
for an agency to take a lead role at one point and then be able 
to adjust its involvement to a secondary role spontaneously 
without disrupting the command system in progress.
    If you consider recent instances of mass acts of violence 
and terrorism around the globe that were carefully planned and 
executed by their assailants, throughout an ordeal of this kind 
the responsibilities of each agency involved may change, 
requiring the command structure to adjust. This kind of ground-
level flexibility can only be achieved with the full 
integration of all entities to ensure smooth transition of 
commands which are crucial to the success of a mission and the 
safety of the rescuers and victims.
    My third and last point is realizing that law enforcement 
is generally not fluent with the practices of large-scale 
incident command systems, and because there are less controls 
in place that govern the standards and practices for law 
enforcement and that of other first responders, special 
considerations will have to be given to many State and local 
police departments before they will be able to achieve parity 
with other entities in terms of equipment, training and policy 
adoption. I will cite a couple of examples.
    Although police officers respond to the same incidents as 
their counterparts in the Fire Service, they are seldom 
equipped as well as firefighters with protective clothing, 
breathing apparatus, safety devices and so on, leaving them to 
fend for themselves with nothing more than a coarsely made 
polyester uniform. Training for police officers is more 
difficult than it is for their counterparts because of the 
individual schedules and a lack of manpower to cover street 
assignments while officers are taken out of service for drills 
or classes. Legal issues also arise when a police officer 
responds to another jurisdiction or State and acts as an 
enforcer of foreign laws.
    Departmental policies will have to be rewritten and in some 
cases created entirely to adjust for compliance with new 
Federal and State standards. Many of these issues have already 
been addressed for years by non-law-enforcement entities, 
leaving police behind the curve.
    Considering the many areas that law enforcement agencies 
will have to adjust, and considering the extra time and funding 
it will take to get the police departments up to speed with 
others under NIMS, the Federal Preparedness Grant System should 
be expected to spend money on these deficiencies, perhaps 
disproportionately, and allow extra time to incorporate the 
principles of NIMS and ICS into their procedures.
    It serves no purpose to allow police officers in a system 
where they will be handicapped by a lower level of equipment 
and training, backed up by deficient policies and lack of 
funding. The police will carry a larger burden than others 
initially, and they will carry this burden on already stressed 
local budgets unless grants are issued in advance to help them 
acclimate to the new Federal and State standards.
    In conclusion, NIMS is a beneficial system that can play an 
important role in the training, educating, equipping and 
assisting of those responding to critical incidents, especially 
acts of terrorism. But as I said on my opening remarks, law 
enforcement has unique responsibilities that extend far beyond 
the tertiary roles of directing traffic and crowd control. I 
would like to see our Nation's police officers better equipped 
and protected with the knowledge that can save lives, the lives 
of citizens, the lives of other first responders so that they 
can perform their jobs, and the lives of police officers 
themselves. The NIMS system can provide this opportunity; 
however, there is no doubt that this will take time, resources, 
patience and a modernized thought process by all those involved 
to fully integrate law enforcement into the system.
    Mr. Chairman and Ranking Member Thompson, members of 
subcommittee, I appreciate your consideration of our Nation's 
police officers under NIMS, and I look forward to working with 
you to ensure that our officers get the resources that they 
desperately need, and I thank you for the opportunity to speak 
before you today.
    Mr. Shadegg. I thank you very much for your testimony.
    [The statement of Mr. Lenkart follows:]

                  Prepared Statement of Steve Lenkart

    Good Morning, Mr. Chairman and Members of the Subcommittee.
    My name is Steve Lenkart; I'm the National Director of Legislative 
Affairs for the International Brotherhood of Police Officers. I'm a 
former police officer from the Chicago, Illinois area where I also had 
the pleasure of serving as a firefighter and emergency medical 
technician, covering a 14-year period of service in law enforcement and 
other emergency services. During those years, I had the rare but very 
fulfilling opportunity to work in all three capacities with my 
experiences ranging from the front line to supervisory and management 
positions, providing me with an in-depth understanding of each 
component, and their individual needs and responsibilities.
    It is from these experiences, and also from my more recent years 
representing our nation's first responders here in Washington, that I 
speak before you today. In particular I speak on behalf of law 
enforcement, a very visible and crucial element vital to the success of 
any incident command system and to the supportive infrastructures that 
surround it. Unfortunately, law enforcement is sometimes overlooked or 
underestimated within these systems often because the unique function 
that they perform within a community is not fully understood by others.
    Today, I would like to share with you three concerns of the law 
enforcement community about the integration and implementation of the 
National Incident Management System (NIMS) in an effort to prevent 
unintended consequences during the initiation period of NIMS for the 
benefit of all entities involved. They are, in brief, (I.) that law 
enforcement agencies traditionally have not used large systems of 
incident commands, (II.) that the role of law enforcement at critical 
incidents has expanded in recent years, and (III.) that police agencies 
widely lack many of the resources that other first responders may have 
available to them.

                 I. Traditional Use of Command Systems

    Continuing on my first point: federal, state and local law 
enforcement agencies have not historically participated in large scale 
systems of command or management among themselves, and have even less 
commonly coordinated such efforts with other kinds government agencies 
because of the different responsibilities they are charged with at the 
scene of an incident. However, with the increased probability of acts 
of terror occurring domestically, we have entered into a new era that 
has forever changed our perceptions of prevention, preparedness and 
response to critical incidents. Unrest in the world around us has 
created the need for more comprehensive systems of coordination that 
must be flexible enough to provide for the proper guidance to deal with 
the control and resolution of a criminal element; whereas before, the 
involvement of a criminal element was less likely and as a result, 
large command systems, such as one designed under NIMS, were reserved 
primarily for use by fire, EMS, environmental and healthcare providers.

                   II. Law Enforcement's ``New'' Role

    My second point is: now understanding that law enforcement at all 
levels must play a more prominent role in incident command systems, it 
is vital that members of the federal, state and local law enforcement 
communities must participate as major players in the development of 
policy and procedure under NIMS. This is to ensure that the traditional 
boundaries that have kept them separate from other public safety 
entities are minimized or defeated.
    In addition, incorporated into the incident command system must be 
the flexibility and leverage for an agency to take the lead role at one 
point and then be able to adjust its involvement to a secondary role 
spontaneously without disrupting the command system in progress.
    If you consider the recent instances of mass acts of violence and 
terrorism around the globe that were carefully planned and executed by 
its assailants, throughout an ordeal of this kind the responsibilities 
of each agency involved may change requiring the command structure to 
adjust, such as the police yielding command to the medical services to 
care for the wounded and then regaining command once the injured have 
been cared for. This kind of ground-level flexibility can only be 
achieved with the full integration of all entities to ensure smooth 
transitions of command which are crucial to the success of the mission, 
and the safety of the rescuers and victims.

             III. The Lack of Resources for Police Agencies

    My third and last point is realizing that law enforcement generally 
is not fluent with the practices of large scale incident command 
systems, and because there are less controls in place that govern the 
standards and practices for law enforcement than that of other first 
responders, special consideration will have to be given to many state 
and local police departments before they will be able to achieve parity 
with the other entities within NIMS in terms of equipment, training, 
and policy adoption.
    For example, although police officers respond to the same incidents 
as their counterparts in the fire service, they are seldom equipped as 
well as firefighters with protective clothing, breathing apparatus, 
safety devices and so on, leaving them to fend for themselves often 
with nothing more than coarsely-made polyester uniforms. Training for 
police officers is more difficult than it is for their counterparts 
because of their individual schedules and a lack of manpower to cover 
street assignments while officers are taken out of service for drills 
or classes. Legal issues also arise when a police officer responds to 
another jurisdiction or state and acts as an enforcer of foreign laws. 
Departmental policies will have to be rewritten, and in some cases 
created, to adjust for compliance with new federal and state standards. 
Many of these issues have already been addressed for years by non-law 
enforcement entities leaving police behind the curve.
    Considering the many areas that law enforcement agencies will have 
to adjust, and considering the extra time and funding it will take to 
get police departments up to speed with others under NIMS, the federal 
preparedness grant system should expect to spend money on these 
deficiencies, perhaps disproportionately to other entities, and allow 
extra time to incorporate the principles of NIMS and ICS into their 
procedures. It serves no purpose to involve police officers in a system 
where they will be handicapped by a lower level of training and 
equipment, backed up by deficient policies and a lack of funding. The 
police will carry a larger burden than others initially, and they will 
carry this burden on already stressed local budgets unless grants are 
issued in advance to help them acclimate to new federal and state 
standards.

                             In Conclusion

    In conclusion, NIMS is a beneficial system that can play an 
important role in training, educating, equipping and assisting those 
responding to critical incidents, especially acts of terrorism. But as 
I said in my opening remarks, law enforcement has unique 
responsibilities that extend far beyond the tertiary roles of directing 
traffic and crowd control. I would like to see our nation's police 
officers better equipped and protected with the knowledge that can help 
save lives; the lives of our citizens, the lives of other first 
responders so that they can perform their duties, and the lives of 
police officers, themselves. The NIMS system can provide this 
opportunity, however there is no doubt that this will take time, 
resources, patience and a modernized thought process by all of those 
involved to fully integrate law enforcement into the system.
    Mr. Chairman and Members of the Subcommittee, I appreciate your 
consideration of our nation's police officers under the NIMS, and I 
look forward to working with you to ensure that our officers get the 
resources that they desperately need, and I thank you for the 
opportunity to speak before you today.

    Mr. Shadegg. Dr. Joseph Barbera.

STATEMENT OF JOSEPH BARBERA, CODIRECTOR, INSTITUTE FOR CRISIS, 
  DISASTER, AND RISK MANAGEMENT, GEORGE WASHINGTON UNIVERSITY

    Dr. Barbera. Thank you, Mr. Chairman, Mr. Thompson and 
members of the subcommittee. I am Joseph Barbera. I am a 
residency-trained, board-certified emergency physician who has 
been involved in emergency response at the local, national, and 
international levels since 1986.
    While my primary employment is as a professor at George 
Washington University, I have had the opportunity to become 
extensively involved not just in response, but in the 
development of emergency systems that include a component of 
medical response.
    Particularly I would like to say I have experienced 
firsthand some of the difficulties of biological terrorism 
response. I was the emergency physician on duty at George 
Washington University Hospital the day of the infamous B'nai 
B'rith bioterrorism hoax in 1997 that essentially shut down 
much of Washington, D.C., and its notoriety is thought to have 
spawned many of the bioterrorism hoaxes that occurred across 
the United States.
    I was a medical controller in the TOPOFF bioterrorism 
exercise in Denver in 2000, an observer in the TOPOFF2 
bioterrorism exercise in the Chicago area of Illinois last 
year, and I was very heavily involved in the anthrax event in 
2001 in the national capital area.
    From all of that I can say that we need a very complex, 
capable management structure in the health and medical arena in 
order to manage those types of events. In fact, I think the 
central failure in this region in the anthrax event of 2001 was 
the absence of effective incident management systems at our 
local, State and at the Federal health levels. So I think the 
adoption of the National Incident Management System is 
critical. I think if properly managed, it will address this 
important gap for medical and public health preparedness.
    We really need a functional, flexible incident management 
system that is consistent across all response disciplines. And 
that actually also leads me to some of the concerns of the 
current writing of our National Incident Management System and 
particularly how incident command is presented.
    Since mass causality medical response in the United States 
is performed primarily by private medical assets, we must be 
sure that NIMS will effectively address this public-private 
divide which has come up consistently as a problem in other 
mass casualty incidents in the past. We must be sure that 
financial regulatory management systems are in place for health 
care to maximally surge immediately upon demand. In this 
context, medical providers are clearly first responders and so 
must be fully integrated into the first responder community. 
This will only occur when NIMS has established common 
management systems across all disciplines.
    I applaud the Department of Homeland Security in its 
expeditious manner that they developed and disseminated the 
National Incident Management System. I have concerns, however, 
that in the development process and in their understandable 
push to develop it and put it out, that it was not as open to 
the professional input of the health and medical community as 
much as many of us would have preferred. It was particularly 
unclear if we had full consideration of issues that could be 
presented by the acute care medical and hospital professionals.
    The NIMS incident command model, as presented in NIMS, 
still retains much of the wildland fire base description. That 
is not all wrong. It is just that it makes it very, very 
difficult for medical professionals reading NIMS to understand 
the language concepts and, most importantly, the inherent value 
of using incident command. I learned this from professionals, 
particularly in the urban search and rescue system from the 
early 1990s to the current day, in my response for both urban 
official rescue task forces and for the FEMA incident support 
team.
    I know that what is most important is the process in 
incident command and not the boxes and who belongs in what 
boxes. Yet when you read incident command, that is not 
inherently obvious, or intuitively obvious or clearly obvious 
for the novice who is picking this up for the first time, is a 
health or medical practitioner or leader, and needs to go from 
not understanding at all to being able to practice it when the 
time comes.
    All of these issues, I think, are very solvable with 
appropriate attention to further development of the guidelines 
and subsequent training. I think the challenge is to provide 
guidance such that medical and health professionals can use the 
flexibility inherent in incident management doctrine to adapt 
truly useful systems, without straying from the central tenets 
that make incident management effective across disciplines.
    I think it is important, when we hear that ICS as taught by 
the Department of Homeland Security is going to be the 
requirement, that we have had a full hearing for the health and 
medical professionals, and that ICS as taught by the Department 
of Homeland Security will be a system that can accommodate 
health and medical concerns. I am absolutely certain that this 
can occur, but we have to pay careful attention to how we do it 
so it does indeed occur.
    I would like to conclude with one very positive remark. In 
our many concerns about medical search capability and 
capability in mass casualties in the United States, it is 
important to emphasize in most parts of the United States, in 
almost every community of any significant size, we have very 
capable medical and health professionals. I do not have the 
concern that, faced with one or two very sick or very injured 
patients, that medical professionals can step up and take care 
of them as appropriately as possible. My concern is that we 
provide to them a management system and the support systems 
that come with the good management systems so that when they 
are faced with hundreds or thousands of potentially dying 
patients, they can still perform to the best possible ability 
there is, and that they can do it as safely as possible for 
them, for their current patients in health care facilities and 
for their communities.
    So I think this concludes my prepared remarks. I applaud 
the Department of Homeland Security for their moving forward 
with the system that has made many in the health and medical 
community recognize that we need a single consistent framework 
for emergency response, and I look forward to my colleagues and 
I being able to participate further in the development of 
incident management as it can be understood by our community. 
Thank you.
    [The statement of Dr. Barbera follows:]

              Prepared Statement of Dr. Joseph A. Barbera

    Mr. Chairman and Members of the Subcommittee, I am Joseph A. 
Barbera, a residency trained, board certified emergency physician who 
has been involved with emergency response at the local, national, and 
international levels since 1986. I am currently Co-Director of the 
Institute for Crisis, Disaster, and Risk Management at the George 
Washington University, where I teach masters and doctoral emergency 
management courses, and I provide research and consultation services to 
hospitals, EMS, public health, emergency management and other emergency 
response entities.
    I have been asked to speak to you today about the subject of NIMS 
and its importance/application for health and medical response to 
large-scale incidents in the United States, particularly as it relates 
to terrorist mass casualty events. I would like to state that I have no 
remunerative relationship representing hospitals, hospital 
associations, or commercial products in this regard.
    I would like to begin by congratulating and thanking you for 
focusing on this vitally important subject.
    From the biography that I submitted to the subcommittee, you can 
see that I have extensive experience in emergency response, and in the 
development and implementation of response systems that are integrated 
across disciplines at the local, state, and federal levels. In the 
course of my professional pursuits, I have become very familiar with 
the use of incident management.
    Of particular note, I have been part of the Office of U.S. Foreign 
Disaster Assistance/AID International Search & Rescue Team since 1988, 
and was the lead medical consultant in the development of both that 
team and the medical component of the FEMA National Urban Search & 
Rescue System. I was a member of New York City's Task Force at its 
inception, and have been a member of the Fairfax County (Virginia) 
Urban Search & Rescue Task Force since I moved to the D.C. area in 
1993. I am also a member of the FEMA Urban Search & Rescue Incident 
Support Team, and in that capacity responded to the Oklahoma City 
Bombing in 1995 and the Pentagon and World Trade Center attacks of 9-
11-2001. I have been involved with the National Disaster Medical System 
for many years, participating in advisory and development activities, 
large-scale exercises, and response. I have also been extensively 
involved in medical planning for the National Capital Area and 
specifically for Washington (D.C.) and Arlington County (Virginia). In 
many of these activities, I have had the privilege to learn incident 
management from true incident management professionals, and in the 
process have developed a strong belief that it can be very effective in 
managing public health and medical emergencies.
    I have experienced firsthand the difficulties of biological 
terrorism response. I was the emergency physician on duty at George 
Washington University Hospital the day of the infamous B'nai B'rith 
bioterrorism hoax in 1997. I was a medical controller for the TOPOFF 
bioterrorism exercise in Denver in 2000 and an observer for DHHS for 
the TOPOFF2 bioterrorism exercise in the Chicago area. I was heavily 
involved in the 2001 anthrax dissemination incident here in the 
National Capitol Region. In my role as chair of the emergency 
preparedness committee for DC Hospital Association, I established and 
moderated a daily conference call that became the basis for information 
exchange between hospitals, acute care providers, and the multiple 
public health authorities in the National Capitol Region. 
Unfortunately, the anthrax incident demonstrated that the capabilities 
to effectively manage a large-scale, complex, and rapidly moving health 
event were lacking, especially compared with the management success at 
an equally complex Pentagon response a month earlier. The central 
feature in the failures of the 2001 anthrax incident in the National 
Capital Area, in my professional opinion, was the absence of effective 
incident management systems at the local, state and federal levels.
    The adoption of the National Incident Management System, NIMS, if 
properly managed, will address this important gap in medical and public 
health preparedness. A functional, flexible, incident management system 
that is consistent across all response disciplines is critical for 
effective performance of medical assets such as hospitals and medical 
providers, for coordinating medicine and public health, and for 
integrating both acute care medicine and public health into the larger 
emergency response community.
    The medical care necessary for a mass casualty event must be 
recognized as a public safety function, and therefore as a governmental 
responsibility that is equal in importance to fire suppression, 
emergency medical services, public works, and law enforcement. As we 
face the specter of mass casualties from future incendiary, explosive, 
chemical, biological, and other unusual attacks, it is abundantly clear 
that the private medical systems must be fully prepared to fill this 
critical public safety function in saving lives, reducing suffering, 
and providing a visible competency for their communities. Demonstrating 
adequate medical response will assist authorities in maintaining the 
public trust and in reducing the intended psychological ``terror'' 
impact of terrorism. Since mass casualty medical response is performed 
primarily by private medical assets, we must be sure that NIMS will 
effectively address the public-private divide, that health care 
facilities are treated as critical infrastructure in every community, 
and that financial, regulatory, and management systems are in place for 
healthcare to maximally surge immediately upon demand. In this context, 
medical providers are clearly first responders, and so must be fully 
integrated into the first responder community. This will occur only 
when NIMS has established common management systems across all 
disciplines.
    The decision to establish a National Incident Management System 
must be applauded. The development process used in creating the NIMS 
document, however, was not as open to professional input as many of us 
would have preferred. It is particularly unclear whether the NIMS 
development process provided a full hearing for the concerns and issues 
of acute care medical and hospital professionals. While I am sure that 
public health representation, provided by DHHS, was included in the 
development of NIMS, one cannot assume that public health professionals 
represent all the concerns of acute care medicine and hospitals.
    The NIMS incident command model, as described in NIMS Chapter II 
and Appendix A, is very much based upon the description of ICS for 
wildland fire incidents. A careful read finds evidence that changes 
were made to address law enforcement and security/intelligence 
concerns, but no indication that medical issues were similarly 
addressed. This is not a power issue, but rather a concern that the 
incident management model presented in NIMS must be maximally useful 
for all emergency response disciplines. This is particularly important 
because the model will be used for future training and for developing 
operational systems in communities across the United States.
    For many medical professionals reading NIMS, the language, 
concepts, and inherent value are not intuitively obvious or clearly 
presented. It is not easily understood, for example, how acute care 
medicine will provide critical input into the management function of a 
large-scale incident response. It is also not clear how one may 
establish a Plans/Information Section that, for a biological incident 
with very complex incident information needs, may be as complex as the 
Operations Section with branches, divisions, groups, and task forces. 
The rather vague presentation of how unified management functions in a 
complex incident is also concerning, since this is a critical issue for 
public health and acute care medical professionals. These are serious 
concerns that must be addressed.
    All of these issues are very solvable with appropriate attention to 
further development of guidelines and subsequent training. The 
challenge is to provide guidance such that medical and public health 
professionals can use the flexibility inherent in incident management 
doctrine to adapt truly useful systems, without straying from the 
central tenets that make incident management effective across 
disciplines. Carefully developed educational and training programs for 
the medical and public health communities must become a priority in the 
NIMS implementation process. Further delineation of the processes of 
incident management should also be undertaken, with a multi-
disciplinary body that includes medical professionals experienced in 
incident management.
    I would like to conclude with one very positive remark, which 
emphasizes the importance of what we are discussing today: In the 
United States, we are fortunate to have a very competent level of 
medical care in almost every community of any significant size. I am 
not concerned as to whether medical, nursing, and other healthcare 
professionals in the U.S. will be able to provide appropriate care when 
faced with a very ill or injured patient. We have a very strong medical 
foundation upon which to expand our mass casualty preparedness. My 
concern is this: to the best of our ability, can we provide these 
dedicated professionals with a management and support system they need, 
so that when faced with hundreds or thousands of casualties, they can 
continue to provide the best possible care, and do it safely? Assuring 
that the incident management process and procedures of NIMS are further 
developed so that they are easily understood, fully implemented and 
trained upon, and ready for use when called upon by health 
professionals, hospitals, and other healthcare resources will 
significantly address this concern.
    Mr. Chairman, that concludes my prepared remarks. Again, I 
appreciate the opportunity to express my views on this critically 
important subject. I would be pleased to answer any questions you or 
members of the Subcommittee may have.

    Mr. Shadegg. I would like to thank all the witnesses for 
their thoughtful testimony.
    Let me begin the questioning with you, Mr. Jamieson. I want 
to pick up on a point made by Dr. Barbera and, quite frankly, 
points made by each of our other panelists by kind of beginning 
with Dr. Barbera referred to the fact that in reviewing NIMS 
documents, some of the terminology, some of the structure is 
not completely understandable within the medical provision. 
NIMS was developed within the Forest Fire Service, as I 
understand it. You also heard, I think, thoughtful testimony by 
Mr. Lenkart about how these concepts are somewhat foreign to 
police officers, and I want to get into some detail on those 
earlier points, but it seems to me it is important to begin 
with the basics.
    I guess I would ask you for my colleagues in Congress, 
because I have asked a couple of them in the last few days what 
do they know about NIMS, and I get blank stares, and also for 
the American public, can you just synopsize in plain English 
like I might have to do at a town hall meeting what NIMS is in 
a way that would be understandable to a doctor or a police 
officer that has never embraced these concepts, or, more 
importantly, to an average American?
    Mr. Jamieson. Mr. Chairman, I will do my best. I appreciate 
the comments of my colleagues.
    NIMS, as the doctor pointed out, is not a group of 
organizational boxes. It is far more than that. It is a series 
of processes that outline how we order resources, how we 
operate through a common operations section. It is a bottom-up 
approach from an incident commander establishing a very modest 
organization, scales out to provide for State and Federal 
support. It is fundamentally a system supported by a series of 
forms and processes that takes on the resources that are 
necessary to manage an incident. I guess in my simplest plain 
English terms, that is my attempt.
    Mr. Shadegg. And effectively implemented, it is a 
coordination of all the first responders to best manage a 
particular attack, a terrorism attack or some other type of 
incident.
    Mr. Jamieson. Yes, sir, that is exactly right.
    Mr. Shadegg. My time is limited, but I want to give you an 
opportunity to specifically respond to the three concerns that 
the others have raised. First, I think Chief Freeman said 
clearly that 2006 looks difficult, and I want to ask him a 
question about that, but I want you to respond to the issue of 
2006.
    I think Mr. Lenkart made a very valid point that police 
officers, for one, do not have the training time that other 
agencies do to a certain degree, and in some ways this is not 
suited to them, and he asked for special help including 
financial assistance to get the police departments ready for 
that.
    And last, I think, Dr. Barbera's point about these concepts 
being foreign to doctors who think about the care of a patient 
now trying to be embracing a whole new concept of taking care 
of mass casualties.
    I would like you to briefly respond to those if you could.
    Mr. Jamieson. Sure. Maybe the training piece first.
    I would be happy to provide to the committee the full list 
of training that is currently available.
    Mr. Jamieson. There is some 26 courses that are available 
now either through Web-based training or through distance 
training, classroom training. We also have them prepared to go 
out and train the trainer at the State and local level. Several 
of those courses at ICS are customized to address the specific 
disciplines that we will be using, so there is a course on 
health and medical workers. There is a course on ICS for law 
enforcement. There is a course on ICS for public works.
    We are not teaching a different brand of ICS with those 
courses, but what we are doing is using scenarios that are 
applicable to law enforcement and Fire Service and what have 
you. So I think we are well positioned now through courses that 
are available through the Department to support some of this.
    The other point on training that I would raise, Mr. 
Chairman, for you and other members of the committee, quite 
frankly, is that the Department has NIMS awareness training 
that is available now; that we can log in on the Website, you 
can look at it, taking maybe 45 minutes or something to get 
through it. And it is a good awareness training. We have 
already had 10,000 folks who have signed up and took that 
training. So I think in terms of getting this process started, 
that is a good way to start to get that general awareness on 
what NIMS training is. But after we have that in place are a 
variety of courses for EMS technicians, for law enforcement 
that bring home ICS from their disciplines.
    Mr. Shadegg. I am going to have to cut you off. Hopefully 
we will get a second round. Before I finish my first round, in 
case we do not get a second round, Chief, I would like to ask 
you a question and give you a chance to respond to it.
    The point you made about the 2006 deadline strikes well 
with me because I think it is a tremendous amount, a vast 
amount to try to accomplish in the time we have. At the same 
time it seems to me it is like many other issues that present 
themselves to the Homeland Security Committee. You are damned 
if you do and damned if you don't. That is, do we set a 
unrealistic deadline because the American people deserve to be 
protected as quickly as possible, or do we not set that 
deadline and take the criticism of not setting the deadline? I 
am not sure where the balance strikes. I would like you to talk 
to that point.
    In my own mind, perhaps the best thing to do is to leave 
the deadline there until the last minute to encourage everybody 
to do as much as they can, and then, out of reality, to extend 
it, but only extend it after you realize it cannot be achieved. 
I would be happy to hear your response.
    Chief Freeman. Mr. Chairman, I appreciate that. Again, the 
training aspect of it is key, and much of the on-line training 
that is proposed and is available is similar to trying to teach 
someone to ride a bicycle on line. There has to be the hands-on 
practicum associated with that. The system works; there is no 
doubt about that.
    What I would suggest is that with a deadline, and I think 
we all feel the urgency, and we also sincerely applaud the 
Department of Homeland Security for moving as quickly as they 
have, perhaps using the phase-in years 2005, 2006, maybe using 
a little more of the carrot and less of the stick from the 
standpoint of trying to incentivize the training with some 
grant money, or something of that nature, to move localities 
forward. It is certainly doable. But that would be my 
suggestion to move us toward that deadline because there is a 
lot of work to be done.
    Mr. Shadegg. I thank you all for your testimony.
    The Chair would call on the Ranking Member Mr. Thompson for 
your questions.
    Mr. Jamieson. Mr. Chairman, if I may, just to address the 
issue of the deadline. I think that, just for the record, we 
are using fiscal year 2005, there is a 2-year time frame for 
the deadline, fiscal year 2005 and fiscal year 2006. These 
negotiations of effecting the grant do not kick in until 2007. 
And part of what we are doing there on the funding issue, if I 
may, is not only is the Department of Homeland Security turning 
its funding to implement NIMS, but as part of the Federal 
department and agency compliance, all Federal preparedness 
grant funding that is going out through any department and 
agencies. We are working with them now to change their grant 
guidance to reflect the fact that NIMS needs to be a component 
of what they do under that grant funding. So we are leveraging 
Federal funding across the board.
    Mr. Shadegg. Thank you.
    Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    We have talked about the 2005 and 2006 periods during the 
testimony today, and as the reference to the term ``certify,'' 
and I want to make sure we are all on the same page as to what 
we are talking about when we say certify for different 
departments.
    Chief, if you would, tell me what do you--when they say 
certify that you are NIMS-compliant, what does that mean in 
your mind, or has anybody talked to you about what does that 
mean?
    Chief Freeman. I have had an opportunity to review a 
document in another role that I have, where I have seen the 
letter to the Governors, and, as I understand it, in that 
context, which is narrow right now, is that the various 
agencies need to gradually adopt certain elements of NIMS and 
the ICS and moving forward from that point. As a fire chief, as 
a practitioner, I haven't heard specifically what that means as 
yet.
    Mr. Thompson. So, do I detect from that a little urging on 
your part to the Department that they need to be a little more 
forthcoming with that information if the targets are to be met?
    Chief Freeman. Well, I believe--I believe that what is the 
plan of action is to roll this out through the States, and then 
have the States roll it out to the local governmental entities. 
And perhaps it would be good, as these rollouts are occurring, 
if we could ask the Department to share it with local 
governmental officials as well as the Governor and the State, 
simultaneously where possible. I think it would help with the 
information flow.
    Mr. Thompson. One of the issues associated with this 
command and control situation is how do police departments fit 
in the mix, because that is a division of labor that is really 
different for policemen in this situation. I heard your 
testimony about your concern.
    What would you say to DHS if the mandatory requirements 
came down like they are, that you would like to see them take 
into consideration?
    Mr. Lenkart. Well, sir, my guess is--law enforcement, 
having their unique responsibilities that they have, we have 
been at the same incidents for years as other first responders. 
We work well alongside each other, but we don't--typically 
haven't worked well with each other.
    In order to do that, you are reversing years and years and 
years of traditional thinking. You have to teach a couple of 
old dogs new tricks and build some policies that are--actually 
integrate them and force them to be there, not just be present. 
My asking of DHS to show to show a little bit more patience 
with that type of thinking--it does take a little bit more time 
to do that and try to get people to do this--and not hold up 
grant monies if they come across a little bit of reluctance or 
hesitance on the part of law enforcement to get on board. It is 
going to take a bit more time than some other folks.
    Mr. Thompson. Dr. Barbera, one thing that struck me about 
your testimony is the reference to the private sector 
involvement and incident command situations. Are we presently 
providing, in your opinion, the private sector enough training 
or involvement, or have we focused it primarily on State and 
local government? And, if not, how do we bring the private 
sector into this process?
    Dr. Barbera. Well, thank you very much. That is a very good 
question. There has been a--quite a bit of training available 
to the private sector, medical providers, hospitals, health 
practitioners. Much of it has been at the level of tactical 
response, how do you do things, how do you do decontamination, 
how do you physically manage mass casualties.
    There hasn't been a lot of training at the level of 
management of systems for mass casualties. And particularly, I 
am not sure we have well defined for national understanding how 
you integrate the concerned issues and opinions of acute care 
medicine when you have a rapidly moving mass casualty event 
where what command does for a decision has a lot to do with 
what you need to do medically and how you can do it with the 
time frame, et cetera. And I don't think it is just with 
private medicine. I think there--we had issues with this after 
9/11 in New York City with construction, deconstruction experts 
and in other situations, too.
    So I think that there--the processes are there. They are 
just not very well defined. And I think this is an area, again, 
that the NIMS Integration Center could take a close look at and 
be very helpful.
    We need to define the model better so that the training can 
follow, and we really have to remember that in order for 
training to be effective at the operational level, we first 
have to have the systems in place so once you train, you can 
turn around and operate the systems.
    And I think we still need further guidance on management 
systems that integrate hospitals with public health, acute care 
medicine, and the rest of them are emergency response.
    Mr. Thompson. Thank you. The time of the gentleman has 
expired.
    The Chair would call on the gentlelady from New York Mrs. 
Lowey for questioning.
    Mrs. Lowey. Thank you, Mr. Chairman.
    If I seem impatient, it is 3 years after 9/11, and I have 
been hearing for a long time we have get to get the systems in 
place, and the right hand still doesn't know the left hand--
what the left hand is doing. And we get a briefing the other 
day from the head of counterintelligence of the CIA, and he 
doesn't know what is going on at TSA. So please forgive me if I 
sound impatient. And I have several questions.
    But in the time remaining, perhaps I should ask Mr. 
Jamieson, we have heard over and over again for the last 3 
years, I heard it from my police, my firefighters, all those 
who went to the World Trade Center, that interoperability is 
key. In fact, Chief Freeman referenced it today.
    You know, if interoperability communications is a priority 
or a requirement of NIMS, and if it is not a requirement, I 
would like to know why not--my Federal responders need so much. 
They need so much more. They are doing it on their own. We are 
trying to fight for reimbursement. I introduced a bill that 
looks like it is probably going nowhere, even though we all 
worked very hard on the reauthorization of the homeland 
security bill. But it doesn't seem to be even going to be 
marked up here in this committee.
    If you agree, Mr. Jamieson, that interoperability is 
important, then why aren't we doing something about it? Are we 
going to be debating this a year from now, 3 years from now? 
And perhaps I will put in the same question, because it is 
related.
    My firefighters take all of this very seriously. They have 
HAZMAT equipment, which I got them. They are working to prepare 
for a possible incident. Yet we read in the New York Times that 
120,000 hours of intelligence audiotape hasn't even been 
analyzed by the FBI. I would just think the hole Department of 
Homeland Security would revolt and say, how are we going to 
prepare? How are we going to get the information down to our 
firefighters, police, when we still have 12,000 hours of 
audiotapes that haven't been translated? And we hear over and 
over again that something is going to happen 12 to 15 days 
before the election.
    Perhaps you can calm me with some confidence that you are 
all talking to each other, that you get as upset as I do, that 
you are the person to whom you report, reports to the next 
person and says, what do we tell our firefighters?
    And let's just focus on New York for a minute, if we may. 
What are we supposed to be telling our firefighters, policemen, 
first responders when we don't even know the up-to-date 
information?
    But maybe start with interoperability.
    Mr. Jamieson. Thank you, Congresswoman.
    I appreciate your question. And let me answer straight away 
that interoperability is very much at the key and the heart of 
the National Incident Management System. It is one of the major 
components of the system.
    I think it is fair to say that there is no silver bullet 
solution to the problem of communication interoperability. I 
think my colleagues here would support that notion, but there 
are some efforts under way with the Department to address the 
issue.
    Mrs. Lowey. Could I just ask you--
    Mr. Jamieson. Yes.
    Mrs. Lowey. --when you said there is no silver bullet, is 
it because it is still too expensive, or because after 3 years 
you still don't have the specific requirements, the 
information, to be able to implement it?
    Mr. Jamieson. Well, it is very much of a combination of 
factors. Some of it is technological. Some of it is 
establishing baseline requirements. But a lot has been done in 
terms of figuring out what the root of the problem is and what 
the solution should be.
    Mrs. Lowey. Are we still going to be talking about this 3 
years from now? How many years do you think it will take to 
institute interoperability between our firefighters, police, 
Congressmen, et cetera, et cetera?
    Mr. Jamieson. Hopefully, Congresswoman, we will not be 
talking about it to the degree we are now. I would respectfully 
submit part of the problem with communication interoperability 
can, quite frankly, be solved very easily, I believe the Chief 
would support this, through having a communication plan in 
place. It is not essential that all of us talk to one another 
or that all of us talk to the incident commander. And I think 
that defining and shaping the problem a little bit better than 
we have is critical.
    And I think that part of what we are trying to do under the 
National Incident Management System is to establish that 
communication planning so that interoperability will occur 
better.
    Mrs. Lowey. Can you give me an idea of the time frame?
    Mr. Jamieson. Communication planning is something that is 
occurring right now.
    Mrs. Lowey. But how long will it take? I heard about a year 
and a half, 2 years ago that they were going out with an RFP to 
establishing standards. It still hasn't happened yet.
    Mr. Jamieson. Well, you are speaking, I believe, of the 
SAFECOM initiative in terms of what they are doing there. They 
are going through a traditional requirements-gathering process. 
There are pilot testing programs. There is the rapid 
communication initiative where we are specifically going into 
10 large communities, specifically L.A., to specifically look 
at best practices, what they are doing there to establish an 
immediate communication capability.
    Mrs. Lowey. Would you comment on GAO's comments on SAFECOM?
    Mr. Jamieson. Congresswoman, I am not familiar with GAO's 
comments.
    Mrs. Lowey. They just said it was ineffective. But this is 
an example of the right hand not knowing the left hand. If you 
are working on communications, then maybe someone three offices 
down was working on the SAFECOM program, but shouldn't there be 
a means for everybody to communicate? GAO said SAFECOM was 
ineffective.
    Mr. Jamieson. I think so, the Department has just recently 
stood up a new Office of Interoperability and Compatibility, 
where I think they are considering a variety of these 
initiatives within the Department as well.
    Mrs. Lowey. I don't know if my chiefs or those who are on 
the front line would like to comment, but you are the ones that 
have to deal with this and face the bureaucracy 3 years after 
9/11. That still doesn't seem to be making progress.
    Yes, sir.
    Dr. Barbera. I would just like to point out, Congresswoman, 
that I think if we have effective incident command implemented 
across the country, that is a large part of the 
interoperability. It is far more than having a radio where you 
can talk to someone else. If you--if you can adjust and use 
management structure to overcome radio problems, but, more 
importantly, to overcome differences in how you normally 
operate and pair people together.
    I can give you one very quick example is that 9/11 at the 
Pentagon, when mutual aid fire EMS resources were arriving 
through Arlington County, their radios didn't talk to each 
other. But I know that one of the things that Chief Schwartz 
did was assign one of his firefighters, EMS personnel, to each 
of those units. So they had interoperability that was far more 
than just radios. It was how we operated. It is standard 
operating procedures. It is where we reported all of those 
things.
    So that is an important part, I think, of communications 
interoperability that we shouldn't--that we shouldn't miss when 
we focus just on the technology component of it.
    Mrs. Lowey. Let me just say, because I have about 30 
seconds left, if I sound impatient, I am. And I know how hard 
you are working. But I think we have real problems in this 
country. And as a New Yorker who understands, as a mother, a 
grandmother of seven, that supposedly, according to all the 
warning systems, we are the target, I don't have another 3 
years to wait for NIMS or some other acronym to get their act 
together. My police and my firefighters are right there, and 
they are working hard, and they are not getting what they need.
    So let me thank you for your hard work, but we really have 
to do something, in my judgment, about better coordination, 
letting all the departments talk to each other. And I know 
Secretary Ridge is working hard, but it is just not happening. 
And I wish you would send that message up, that if you are 
going to implement on the local level, they need to do 
something about those 120,000 hours of audiotape that still 
hasn't been translated. This is--it is really an embarrassment. 
But perhaps I should close with this.
    Mr. Shadegg. I thank the gentlelady for her questions. Just 
as a comment I would say her impatience on the topic of 
interoperability and on the topic of coordination and on just 
in the general sense of pushing the Department and all of those 
with these responsibilities to move as quickly as possible 
serves the Nation well, and I appreciate that.
    Mrs. Lowey. Thank you, Mr. Chairman.
    Mr. Shadegg. The Chair would call upon the gentlelady from 
the Virgin Islands Mrs. Christensen for her questions.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I apologize for having to step out to another committee 
meeting, but I am back, and I hope I am not going to repeat any 
of the questions.
    I want to welcome our panelists. I want to particularly 
welcome Dr. Barbera, who is from my alma mater, GW, and also 
went to Notre Dame, and I went to St. Mary's.
    I want to ask my first question to Mr. Jamieson. How long 
have you been in your position at the Department?
    Mr. Jamieson. I was appointed by Secretary Ridge in August 
of this year.
    Mrs. Christensen. August of this year. Okay. Well, you 
know, this is a very important issue, because I understand that 
the failure of the incident command system was cited at TOPOFF 
and other major exercises as a major deficiency in our 
exercises and preparedness. And as a Member who is from a 
hurricane-prone area, who has worked with FEMA for many, many 
years, I have a sense, you know, that FEMA expertise, at least 
maybe until August, has not been fully utilized and 
incorporated as it should be into our preparedness and response 
at Homeland Security.
    And having gone to Seattle after TOPOFF and talked to other 
people around the country, there was also reportedly too much 
Federal interference in the response, instead of letting local 
leadership who knew the territory lead.
    And I note that in the 2005 budget, most of the funding, if 
not all of it, is going to the Federal agencies rather than to 
local responders. Yet there being--they are being required to 
come into full compliance with an IMS system. So the way the 
funding is being perpetuated, aren't we perpetuating a mistake 
that we learned from TOPOFF, too?
    Mr. Jamieson. Congresswoman, respectfully, I don't think 
so. There has been some $8.5 billion that has been put out by 
the Department to State and local governments to basically 
support the planning, training, equipping and exercising of our 
first responders, and that will continue in fiscal year 2005, 
and it is at really--that is the fuel that the Department is 
putting forward in terms of providing the resources that are 
needed for State and local governments to comply with NIMS.
    But as I mentioned, prior to your coming in, there is also 
a requirement for other Federal departments and agencies to 
also support this initiative. So any stream of grant funding 
that is going out through the Department of Health and Human 
Services or anyone else that is going to building capability or 
preparedness measures at State and local level, all of that 
grant funding needs to be leveraged towards the implementation 
of NIMS as well.
    Mrs. Christensen. Just all through these last couple of 
years, particularly the year that the committee has been in 
existence, what we heard mostly from first responders and local 
jurisdictions that they have not had enough funding to meet 
even the basic needs for equipment and training. So to put the 
burden on them again, to get up to speed on this National 
Incident Management System, just seems to be defeating the 
purpose.
    Okay. Let me turn to Dr. Barbera, and I really appreciate 
your testimony. I had a chance to look through it briefly when 
I was over at the other meeting. The attention that you are 
bringing to the importance of health care, the health care 
community being part of the first responder system, EMS may be, 
but physicians, nurses are not necessarily seen. That is one of 
the things that we learned as we visited with communities 
around the country and their exercises--and the importance of 
including the private sector as well as the public health 
sector, something that is been brought to my attention many, 
many times.
    You were a part of TOPOFF in Chicago. Could you just--I 
don't know if you have said this already, but could you tell us 
some of the major lessons that were learned in that Chicago 
exercise?
    Dr. Barbera. Well, I think that one of the lessons that was 
learned was that many were surprised by the number of hospitals 
that participated and the level with which they participated. 
Those of us in the medical community weren't surprised at all. 
I can tell you from both 9/11 here and in the District of 
Columbia, the national capital area, and from the anthrax event 
that followed, when there were sick or injured people and we 
needed to do something, hospitals and medical providers step 
up. And I don't just mean physicians, I mean physicians across 
the board, and they step up in a very unselfish manner. And I 
think the level of play in Chicago by hospitals, and northern 
Illinois because it was well beyond Chicago, was reflective of 
that same attitude.
    So I think that--well, what I observed and I learned is 
that we need to have clear management systems in place. We have 
to have ways for hospitals and health care providers to 
understand how they will participate in a major mass casualty 
event. And that goes beyond just pure management. It also goes 
to the regulatory aspects and everything else.
    If, for instance, you are going to take care of many more 
people than you usually do, in order to plan right, you have to 
know that in a public health emergency, for instance, you are 
allowed to take care of more critically ill patients than what 
regulations allow you to do every day. Otherwise you can't plan 
to that.
    So we have to know what a public health emergency might 
mean to release hospitals from some of their burdensome 
regulations. We have to know that they will get paid so that 
they can go away from all of the attention they have to do to 
get paid on a regular basis and can use that man- or womanpower 
to take care of patients as opposed to collect data.
    It is those kinds of things, I think, that I saw also in 
TOPOFF, too.
    I think that Health and Human Services had developed a 
Secretary's emergency response team structure that I think was 
very helpful, and I think that they and DHS and the rest of the 
Federal Government moved further along in defining how they 
will define the expectations at a State and local level. I 
think it will be very, very beneficial across the country.
    So, one of my concerns is that we make sure that the ICS, 
as presented in NIMS, is very understandable to all of these 
different communities. But what some of the concerns that Mr. 
Thompson expressed earlier, that others have expressed, about 
ICS, I know from working in it, from working with 
professionals, many of them from Chief Freeman's fire 
department and others in California, that it works, and it is 
not burdensome, and it is very, very valuable, and it takes 
care of many of the issues we currently face in terms of how 
you manage a response.
    But I am not sure that the way the average person reads 
what we have now can pick a lot of those things up, and that is 
where I would encourage us to be able to move forward with our 
health, medical, fire, police and other communities working 
with DHS, maybe in a working group-type fashion, to rapidly be 
sure we have got that language and concepts understood.
    It is far better if we could pick up something, say, oh, 
yes, this makes a lot of sense and is useful to me, rather than 
for that to say, oh, yes, I have to read this three times and 
just use it because someone says we won't get grants later. I 
think that is critical.
    I am fully behind incident command. I prefer to use 
incident management, because it really is much more of that 
than pure command. But I think if it is properly understood, it 
will not be so onerous for people to pick up and adopt.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Shadegg. I thank the gentlelady for her questions, and 
I would advise her that the Chair is going to afford a second 
round if you have the interest or time.
    Let me begin a second round, just because we have such 
expertise on this panel, and we have the time to do it.
    I would like to begin by following up on some questioning 
that Mrs. Lowey pursued on the issue of interoperability. It 
occurs to me that to make all radio systems within the first 
responder community interoperable is a very worthy goal, but 
technically and financially a very, very challenging goal. It 
will take us some time. You have departments and agencies that 
I think had just, prior to 9/11, or even after 9/11, with the 
commitment of resources, bought systems that were not, in fact, 
interoperable.
    At the same time, it seems to me when you first think about 
incident management, Doctor--and I think you are right, that is 
a better term--one could at first blush say, well, without 
interoperability how could you have incident management between 
and amongst different agencies? But at the same time it seems 
to me that your testimony, Mr. Jamieson, suggested--and you 
used a term which I would like you to define, a communication 
plan--that, combined with other testimony, particularly Dr. 
Barbera's testimony, that, in fact, a communication plan can, 
in fact, overcome the lack of interoperability I think educates 
me and I think would educate the public.
    I guess I would like you to describe a communications plan 
somewhat as the doctor did with regard to the incident at the 
Pentagon, and explain how NIMS can help us get beyond the fact 
that we cannot overnight get interoperability amongst all 
communications equipment.
    Mr. Jamieson. Sir, I would be happy to. Mr. Chairman, I 
would be happy to try to do that.
    A communication plan in its simplest form is just a 
delineation of who needs to talk to who at the incident command 
post, who within your organization--who within the operation 
section needs to talk to who. There is technology out there now 
where people who are on different frequencies, who are using 
different equipment, can use ``bridging technology'' to 
facilitate this on a technological basis, but it is a little 
awkward. It is not viewed as the ideal solution. And my notion 
of communication planning, I believe what Chief Schwartz at the 
Pentagon proved out, is that we just need to decide who is 
going to talk to--who is going to talk to who in terms of 
responding to the incident.
    But the other point that I think is key, and that is that 
we are beginning to associate NIMS with ICS and ICS with boxes 
and organizations, and I think that is wrong, and that is a 
trend that we should not let develop.
    In order to make this work, ICS is a series of forms in 
terms of how to order resources. It is establishing a common 
operational period. It is establishing an incident action plan 
where we are deciding where law enforcement, Fire Service, 
Public Works, the medical community are going to go within a 
specific period of performance. And so once that is the basis 
of our operations, and objectives are established in that 
operational period, then the communication plan kicks in in 
terms of who needs to make that happen.
    Mr. Shadegg. Dr. Barbera, I am sorry--
    Mr. Jamieson. Yes, sir.
    Mr. Shadegg. Dr. Barbera, just to expand on the point you 
made, as I understand it, it can be as simple as the 
designation of a liaison to an agency that doesn't have the 
interoperable equipment where you communicate to that liaison, 
and it is then repeated amongst that agency on its radio system 
so that you have essentially two links of communication, one 
with those with whom you do have interoperability and some 
other mechanism to communicate to those that you don't. And 
that, I think, can be a part of incident management; is that 
correct?
    Dr. Barbera. Absolutely. I look at incident management as a 
tool for managers to be able to solve problems, and you would 
like to solve those problems at the lowest possible level. If 
they can't be, then they are moved up the chain.
    Interoperability of communications is one of many problems 
that we know is recurrent. So within incident management, 
process and training, as I have learned and watched it 
practiced, that is a key issue to be addressed up front as the 
incident begins to be recognized and evolved. And you adjust to 
it as you move forward. But I am quite sure that some days some 
community might be given quite a bit of money and can have 
everyone talk to anybody at any time, and we will have an 
incident and will demonstrate definitively that is still not 
communications.
    Mr. Shadegg. Right.
    Dr. Barbera. So communications really has to be the tool to 
allow information, data, to become information, and information 
to flow where it needs to be. And if we know where that is, 
then this communication component follows.
    Mr. Shadegg. I would like to conclude with a question to 
Mr. Lenkart and Dr. Barbera, and also, Chief Freeman, to you. I 
would like each of you to comment on it. Rather than asking Mr. 
Jamieson to give his view, let me ask you to give your view.
    Each of you expressed a concern about your ability to, in 
the future, impact the NIMS guidelines that have already been 
developed. I believe Dr. Barbera said to a certain degree there 
wasn't enough input from the medical community. I believe Mr. 
Lenkart pointed out this is a new concept for police and needs 
to be adapted to police in a unique way. Chief Freeman, as a 
Westerner who spent some time in Los Angeles County, I 
appreciate your efforts, and I think it is important that you 
be allowed--you are probably the most sophisticated at it 
because it was in a way developed in a fire context.
    I would like to ask each of to you comment on whether or 
not you feel the Department is, in fact, open to input from you 
as the process goes forward to implementing NIMS and refining 
the guidelines so that it is, in fact, workable. Anyone. You 
can begin, if you like.
    Mr. Lenkart. I will start, Mr. Chairman. I haven't worked a 
lot with NIMS or much within the Department of Homeland 
Security in this regard very much. And a lot of--very few law 
enforcement people have, including those of us who are engaged 
in public policy here in D.C. It is just not--it is not 
traditionally something that we have gotten involved in. Trying 
to get someone to come to Capitol Hill and even work on these 
subissues is very difficult also because they haven't quite 
bought into the system yet.
    What I would like to see is certainly more involvement from 
the law enforcement side of it. Law enforcement is certainly 
partly to blame for the lack of people coming forward to handle 
these types of issues or integrate these kinds of issues in 
international policing as well.
    DHS may also be partially to blame as well for not reaching 
out far enough to encourage law enforcement to come on board. 
But as far as Washington goes, I am here, and I am ready to 
help, and we will do what we can to move it forward.
    Mr. Shadegg. From what I am convinced, you need to buy in, 
and to some degree you already have. Its management when you 
have done search and rescue--perhaps not in more traditional 
law enforcement functions--but when you do urban search and 
rescue, you look for somebody--or even manhunt circumstances, 
it seems to me, you have similar issues.
    Dr. Barbera.
    Dr. Barbera. I think all of us have been involved with the 
system in the Federal Government developing programs in the 
past. We understand the crunch that the Department of Homeland 
Security has been under to take on both NIMS and the national 
response plan and to work through with very tight deadlines.
    I do think that now that it is out, now that they have been 
able to get more public comment, that it would be comforting to 
see a process that allows more open input from across the 
country. I think there is a good model for this in the past was 
the development of the urban search and rescue system that FEMA 
undertook in 1989, 1990, and it involved practitioners, 
specialists in each of the disciplines of urban search and 
rescue and balanced it geographically and by discipline. It was 
a process that allowed open information to be brought in, 
concerns to be expressed. It was moved very rapidly forward. It 
went from start to end of the work group from July to January, 
and they published the system.
    It would be nice to see something like that, to have a go-
around to be sure that all of the different groups that are 
critically important in adopting NIMS and operating together 
have a chance to resolve their issues in that sort of open 
format.
    Mr. Shadegg. I appreciate that.
    Chief Freeman.
    Chief Freeman. Yes, sir. Thank you.
    I believe that the Department of Homeland Security has 
tried to be open; however, it is kind of like passing a message 
to someone catching the subway, which I appreciate. While this 
has taken a long time, it also has been quite rapid in many 
respects, and I applaud that.
    I do think that it would be helpful, and I think within the 
Fire Service--while law enforcement--and Mr. Lenkart is 
providing some very insightful information. There are many in 
the Fire Service who also have similar concerns. Many think 
that ICS is just a wetland force-type of incident system. In 
fact, we have used it to plan incidents, to prepare for 
incidents that never occur. There is just a lot of very 
important applicable elements in that.
    But I think if it is possible for the Department to pause 
for a short period of time and to try to identify and bring in 
representatives from the various disciplines to maybe have a 2 
or 3-day symposium to talk about--let them break off, get their 
concerns, bring them together, and to try to refine the 
implementation plan, because I think it is important that we 
hear from other people.
    While I am very confident that the ICS system and NIMS in 
general will work, is that I am somewhat discredited within my 
own group because of the fact that a lot of fire departments 
are not adept at using incident command like we have had to be.
    So I think it is important to take a little bit of time, if 
possible. I am not suggesting changing any deadlines at this 
point, but just to consciously bring together the various 
associations and representatives from the disciplines to come 
in, including the private sector, so that maybe there is a 
chance to hear at this stage of the game how we can make it 
better and implement it sooner.
    Mr. Shadegg. Thank you.
    For a second round, Mr. Thompson.
    Mr. Thompson. Thank you. A little interoperability problem.
    Well, let me thank all of you for your testimony this 
morning. A couple of issues that concern a district like mine, 
my district is primarily rural. Most of the people involved in 
any kind of situation would be volunteers. Good people, but 
they don't possess the training models that paid departments 
have. And I guess this is to the--Mr. Jamieson. How are we 
proposing to implement this system with rural volunteer 
departments?
    Mr. Jamieson. Congressman, I think the first thing that 
needs to be said is we probably don't want the Feds trying to 
figure that one out. You know, there has got to be a great 
reliance here in terms of relying on those mechanisms and the 
orchestration on the part of the State to define where their 
areas of risk are and how they are going to do this.
    One of your questions in your opening comments was this 
issue of certification. The Federal Government is just not 
going to be able to get down there and--in your district at 
that local level and say, you know, your district is compliant 
with NIMS. We are going to have to go to some mechanism which 
basically says the State as the recipient of grant is going to 
have to conclude back to us that, taken as a whole, this State 
complies with NIMS.
    So that we are placing a premium on the States to develop 
the infrastructure and the processes to ensure that they are 
reaching down to every corner and level of the State. Our job 
will be to provide the training to the States, distance 
learning capabilities, workshops and the funding to the States 
so that they can do that. But I would hate to think that myself 
or others sitting here in Washington would be prescribing how 
that might be accomplished.
    Mr. Thompson. Well, it is nice for our government to 
finally admit that they don't quite know everything. And I say 
you are correct in that respect.
    But the issue is many of those fine men and women will 
respond to a situation, and, unless they are properly trained, 
could potentially cause themselves significant harm. And that 
is what we all would want to avoid, if at all possible.
    Have you pretty much put that burden on the States to do 
just that, what you said?
    Mr. Jamieson. Well, yes, sir. I mean, you know, the States 
are the recipients of all of the Homeland Security grant 
funding that is going out there. It is their job to create a 
strategic plan that takes into consideration the needs of local 
governments or regional governments that are supported through 
a mutual aid compact.
    Mr. Thompson. Well, excuse me. Let me, if I could--my 
question is if I came to you and I said that the Bolton 
Volunteer Fire Department, which covers my home area--are you 
requiring the State to provide the Bolton Volunteer Fire 
Department with certain training for its volunteers? If so, are 
you going to look and approve or certify that training as what 
is required?
    Mr. Jamieson. Sir, your question leads to the issue of 
credentialing and whether or not as we begin to credential 
emergency first responders, what training should they receive, 
and who is certifying the training. Quite frankly, we haven't 
worked all of that out quite yet. I don't think the Federal 
Government will be in the position of making that 
certification. We are going to have to draw on the discipline 
specifics in terms of what the Fire Service is doing, what they 
are doing at the State level, to train and accredit and satisfy 
their individuals now. And we are going to have to think 
heavily on what is going on there as opposed to creating some 
new system at the Federal level to comply with NIMS.
    Mr. Thompson. Well, then, Chief, do you have any comments 
on that?
    Chief Freeman. Actually, our experience in California is 
that through the State, through the State Fire Marshal, their 
training, their certification, there is a level of 
credentialing already in place. I spent 25 years in the Fire 
Service in Texas. I know that there is a State commission on 
standards for firefighters and so forth. I would assume--I am 
not familiar with where Texas is now, but I would assume that 
an agency like that would be involved in this process.
    Every State is going to be probably different, but I think 
that is the model, as I understand it, and I think Mr. Jamieson 
has made that clear, that it comes from the Federal Government 
to the State, and then within the State there needs to be a 
system in place to deliver the training and to do whatever 
certification and credentialing is appropriate.
    Mr. Thompson. Well, Mr. Jamieson, if I will--so, I would 
approve the State's plan; am I correct?
    Mr. Jamieson. We would--in these early years, sir, we would 
be asking as part of the grant that the State would be 
certifying to us that they have met the requirements under 
NIMS. And if they make that certification, we would provide the 
grant funding.
    There is no--there is no specific plan at the State or 
local level at this particular point that they are required to 
prepare in order to comply with NIMS. There is a planning 
requirement for the other Federal departments and agencies, 
and, yes, we would be approving that. But at the State level, 
as opposed to standing up yet another planning requirement, we 
are trying to--we are trying to concert all of those planning 
efforts under the planning effort that the Department has now.
    Mr. Thompson. So they what; as the Chairman just said, they 
self-certify?
    Mr. Jamieson. Yes, sir.
    Mr. Thompson. To what standard?
    Mr. Jamieson. Well, the standards issue is a good question. 
I mean, part of the challenge that we confront with 
implementing NIMS is developing some of those standards. You 
know, as the Chief said, there are some 513 different 
requirements in the NIMS document, and part of it is just kind 
of a checklist. Did you do it; did you not do it. When you get 
into the credentialing issue, which by no means we have walked 
through at this particular point, there are going to have to be 
standards in place by which we credential our first responders. 
And in some instances in the Fire Service, we have a baseline 
standard, NFPA 1600. In the medical community, it is extremely 
vexing with the standards and privileging issues that are out 
there.
    So I don't mean to use your time--but let me just say that 
the Secretary has made it perfectly clear to me that on the 
subject of doctrine and where we go next and implementation and 
credentialing, my number one priority is ensuring that we are 
getting the centers of gravity from all of these different 
disciplines in a room and shutting a door and telling us how we 
need to figure it out.
    We are clearly--I was over with Governor Romney, who chairs 
the Homeland Security Advisory Council, just last week, saying, 
you tell us what work groups you want, who should populate 
those working groups, because the Secretary has made it as 
clear as a bell to me that we need to continue this 
collaboration, and we need to make sure that we are not doing 
anything wrongheaded here in Washington, but we are listening 
to our first responders in terms of what they want us to do.
    So we are not going to--going to sit back and arbitrarily 
develop some standards apart from our partners out there, and 
the mechanism is in place to do it. Is it done? No, sir, not at 
this particular part, but it is clearly part of our planning 
process for involving them in every step of the way.
    Mr. Thompson. Thank you.
    Mr. Shadegg. Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. There we go. 
Thank you, Mr. Chairman.
    Mr. Shadegg. Maybe if we get our own hearing room someday, 
we will be able to operate the buttons instead of having to go 
room to room like transients.
    Mrs. Christensen. Thank you.
    I think this hearing has been very helpful and even in the 
interaction between the panelists. I did have some concern 
about how that collaboration that you, Mr. Jamieson, mentioned 
in your testimony, the issue that--developed an issue in ICS. 
But the discussion, I think, has gone to where it needs to be 
refined by bringing everyone together, and I think that is 
helpful as well as making sure that we incorporate health and 
all of its aspects more fully into the process.
    But I am still a bit concerned about the training and the 
local agencies being certified by the end of 2005. And I wanted 
to ask the chief, Chief Freeman, Mr. Lenkart and Dr. Barbera, 
because our understanding is that you are to use your current 
funding, homeland security or otherwise, to become certified, 
and I wanted to know if you felt that that was adequate 
funding, or does it come down as an unfunded mandate to you to 
prepare for that certification?
    Chief Freeman. Well, thank you. Specifically for our 
department, we have been using the Incident Command System, and 
I believe we would probably measure up very quickly. So it is 
not quite the same issue for us.
    But--again, if I might just speak on behalf of the Fire 
Service at large in our country, much of which is volunteer, 
there is a wide variety of readiness levels within the Fire 
Service. The training component, which is really more than just 
a classroom, depends on the level an individual would 
participate at the ICS level. It requires some hands on, it 
requires some practical and training experience, and I don't 
believe that there is money across the board to do that.
    I know that training in general has been an issue, because 
firefighters also have to go to training, rather than 
necessarily training in place, as has been pointed out for law 
enforcement as well. And there has been very limited funding 
for over time to cover the training costs, very little funding 
for personnel-related costs. There is certainly money for the 
class, things of that nature. But that is an issue that I think 
does need some more attention.
    Mr. Lenkart. Congresswoman, my comments concur with Chief 
Freeman's entirely. Law enforcement is far away, I think, from 
the certification, from completing a certification process, 
even more so than the Fire Service, because we haven't used 
these types of systems before.
    The Chief is absolutely correct when he says that even 
since September 11, we have made certain adjustments to how we 
respond and equip ourself, but we have a long ways to go with 
our equipment, procedures. There have been heavy issues with 
overtime. There is overextended local economies that are 
putting extra burdens on local governments.
    We have a long way to go before law enforcement will be 
ready even to talk about certification, and there is going to 
be--there is definitely a need for some money to be put up 
front, forward funding, to even get us to a position where you 
can start preparing for certification.
    Dr. Barbera. I concur with those remarks. I would just like 
to spotlight one thing that Chief Freeman sort of brushed over. 
There are various levels of training, and the two we have 
talked most about is awareness and operational levels.
    In order to be operationally trained, you have to be 
trained on a system that you then have. And that is a big 
problem with much of the training that has gone on in the last 
7 to 8 years under Lugar, Domenici and others. We trained 
people to do decontamination on systems that they don't own. We 
don't train them how to develop, implement and maintain that 
system. So it is actually a very expensive awareness training, 
not only operational training.
    I think make sure as we move forward with a national ICS 
that we have training that allows people responsible for 
systems to develop and implement and maintain very usable, 
flexible management systems. I think that then makes the 
training more realistic. It makes it much longer-lived. It is 
more likely to do, as Chief Freeman said--to use it on a 
regular basis, because you understand the value of it.
    But unless we address that type of training also, we are 
going to be in a problem. And I will just point out, you know, 
as I do to my students, that DOD never trains its soldiers on 
guns they don't have or tanks they are not going to be having 
shortly, and yet we don't pay attention to that concept on the 
civilian side. So whenever we are looking at someone who says, 
I am going to do training for you, we need to have them define 
the systems they are going to train you to and figure out 
whether or not we already have that system, and if not, does 
the training help you plan, implement and maintain it. And 
those are some of the issues we would like to bring forward 
with our DHS colleagues and make sure are addressed.
    Mrs. Christensen. Thank you.
    Mr. Shadegg. I thank the gentlelady.
    I would concur with her remarks that the testimony has been 
very helpful and the interchange between panelists, I think, 
has been an education for them. I would like to thank all the 
witnesses for their testimony.
    The hearing record will remain open for 10 days. We may 
have additional questions for you as witnesses that are 
submitted in writing by Members who couldn't be here today, and 
your cooperation in responding to those would be greatly 
appreciated.
    [The information follows:]

                        Submitted for the Record

      Questions for Gil Jameison, from the Hon. Bennie G. Thompson

    1. For fiscal year 2005, you requested $7 million in new budget 
authority for development and implementation of the NIMS. Your budget 
documents show that the funds will be used to ensure readiness of 
federal response teams and their integration into state and local 
training programs. Notably, the principal uses for these funds are 
directed towards federal response entities, rather than state and local 
governments.
        <bullet> Isn't it true that in most cases, that vast majority 
        of response activities are undertaken by local and state 
        governments, rather than the federal government? If so, why is 
        the fiscal year 2005 program focused on providing NIMS training 
        and education to federal agencies, rather than state and local 
        agencies?
        <bullet> What is your anticipated fiscal year 2005 budget for 
        state and local training and education on the NIMS system? How 
        many state and local personnel will receive NIMS training in 
        fiscal year 2005?
    2. The fiscal year 2005 House Appropriations Committee Report on 
Homeland Security appropriations directed you to review the benefits of 
establishing regional centers to assist in the deployment of NIMS 
training, education, and publications, and to provide a report on your 
findings no later than November 1, 2004.
        <bullet> What is the status of this report, and can you tell 
        the Committee what geographic regions or institutions are under 
        consideration for the establishment of such a training center?
        <bullet> Will the report be completed by the November 1, 2004, 
        deadline, and once it is completed, will you provide a copy of 
        this report to this Subcommittee?
    3. Your September 8, 2004, letter to the Governors regarding NIMS 
implementation identified the minimum NIMS compliance requirements that 
states and localities must adopt during fiscal year 2005, and also 
noted that full compliance with the NIMS is not required for States to 
receive fiscal year 2005 grant funds. However, during fiscal year 2005, 
DHS expects the states to: (1) incorporate NIMS into their emergency 
operations plans; (2) coordinate and provide technical assistance to 
local entities regarding NIMS; and (3) institutionalize the use of the 
Incident Command System.
        <bullet> Do you have a cost estimate for NIMS implementation at 
        the state and local level? Won't State and local governments 
        need additional funding to train personnel on the NIMS, and 
        funding to revise and publish new emergency operations plans 
        that are consistent with NIMS?
        <bullet> Will DHS provide new or some additional grant funds to 
        state and local governments to help them achieve these goals in 
        fiscal year 2005, or is this an unfunded mandate? Do you expect 
        the states to ``leverage'' general ODP grant funds for this 
        purpose, and choose between implementing NIMS and other, 
        equally pressing needs like specialized equipment, training, 
        terrorism exercises, and enhanced security at critical 
        infrastructure sites?
    4. In fiscal year 2006, grant applicants will be required to 
``certify'' that they have met the fiscal year 2005 NIMS implementation 
requirements in order to receive federal preparedness grant funding.
        <bullet> When, how, and in what manner will the DHS measure and 
        certify NIMS compliance? As noted, for fiscal years 2005 and 
        2006, DHS will allow ``self certification,'' but state and 
        local governments are concerned about when and how this process 
        will change, and how it may impact future state and local 
        funding.
    5. During the initial development of NIMS, DHS was severely 
criticized for not working closely with state and local governments, 
first responders, and first responder associations to develop a system 
that would be useful to and accepted by the entirety of the first 
responder community. I am concerned that DHS is following a similar 
path in the implementation and adoption phase of NIMS.
        <bullet> Does DHS intend to publish a NIMS implementation plan 
        to be utilized by state and local governments? If not, why not?
        <bullet> Will DHS convene state and local working groups, 
        representing all first responder disciplines, in order to 
        either: (a) ensure the successful implementation of NIMS by 
        state and local governments; or (b) develop a NIMS 
        implementation plan, as noted above?
    6. With the implementation of NIMS, the Department has undertaken a 
nationwide effort to ``re-train'' and ``re-certify'' hundreds of 
thousands of emergency response personnel.
        <bullet> How will DHS assure the compatibility of all grantee 
        training and credentialing programs, including NIMS training, 
        to assure we have an accurate and updated picture of our first 
        responders' training and readiness levels?
        <bullet> Does DHS intend to develop a national integrated 
        management and tracking system for training, assessment, and 
        readiness? Does DHS have any plans to track NIMS compliance and 
        training, as well as other important training programs in a 
        consolidated database, similar to the training databases used 
        by our armed forces? If not, how will we measure progress in 
        implementing NIMS?
    7. The Incident Command System and unified command existed long 
before anyone ever contemplated creating the Department of Homeland 
Security, and these systems have always been ``bottoms-up'' 
organizational structures, focused on addressing the unique needs of an 
incident site by maintaining the flexibility to modify response 
strategies and facilitating the integration of state and federal 
resources, if required.
        <bullet> Is the NIMS so heavily focused on the top-down 
        response structure--i.e., command and control--that we might 
        lose the ability and flexibility to effectively respond to 
        disaster and emergencies?
        <bullet> In addition, because the NIMS is concentrated on 
        increasing the preparedness of response forces, particularly 
        federal response forces, as is noted in the fiscal year 2005 
        budget request, aren't we focusing on the preparedness of 
        federal response organizations rather than building the 
        preparedness of individual communities?

 Questions for Dr. Joseph Barbera, Chief P. Michael Freeman, and Steve 
                Lenkart from the Hon. Bennie G. Thompson

    8. Based on the DHS requirements for NIMS implementation in fiscal 
year 2005 and beyond:
        <bullet> In your opinion, what does ``NIMS implementation'' 
        mean? Does it mean that all state and local personnel should 
        receive NIMS training? Or does it mean that all standard 
        operating procedures must be revised and re-published to 
        reflect the NIMS doctrine?
        <bullet> How many personnel could be trained on NIMS on an 
        annual basis?
        <bullet> How do you anticipate that practitioners in the law 
        enforcement, public health, or fire communities will be trained 
        on the NIMS? Would you anticipate any major changes to the 
        course content at police or fire academies, or do you believe 
        that all NIMS training should be provided by the federal 
        government?
        <bullet> Do you have any cost estimates for NIMS implementation 
        at the state and local level?
    9. In fiscal year 2006, grant applicants will be required to 
``certify'' that they have met the fiscal year 2005 NIMS implementation 
requirements in order to receive federal preparedness grant funding.
        <bullet> Have you or anyone in your professions been provided 
        with any guidance on how to ``certify'' that you are NIMS 
        compliant? Are you aware of any DHS plans to involve state and 
        local officials in the development of this certification 
        process?
        <bullet> (for Dr. Barbera) What do you think ``certification'' 
        means to the public health and hospital community? Has the 
        Department of Health and Human Services, which provides the 
        vast majority of preparedness grants to these communities, 
        provided any guidance on certification?
    10. The Incident Command System and unified command existed long 
before anyone ever contemplated creating the Department of Homeland 
Security, and these systems have always been ``bottoms-up'' 
organizational structures, focused on addressing the unique needs of an 
incident site by maintaining the flexibility to modify response 
strategies and facilitating the integration of state and federal 
resources, if required.
        <bullet> Is the NIMS so heavily focused on the top-down 
        response structure--i.e., command and control--that we might 
        lose the ability and flexibility to effectively respond to 
        disaster and emergencies?
        <bullet> In addition, because the NIMS is concentrated on 
        increasing the preparedness of response forces, particularly 
        federal response forces, as is noted in the fiscal year 2005 
        budget request, aren't we focusing on the preparedness of 
        federal response organizations rather than building the 
        preparedness of individual communities?


    Mr. Shadegg. With that, the committee stands adjourned.
    [Whereupon, at 12 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
